<html>
<title> - [H.A.S.C. No. 109-111] SIGNIFICANT FORCE REALIGNMENT OF THE DEPARTMENT OF DEFENSE, INCLUDING BEDDOWN, SUPPORT, AND OTHER COSTS AND REQUIREMENTS RELATED TO THOSE REALIGNMENTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                         [H.A.S.C. No. 109-111] 

SIGNIFICANT FORCE REALIGNMENT OF THE DEPARTMENT OF DEFENSE, INCLUDING 
  BEDDOWN, SUPPORT, AND OTHER COSTS AND REQUIREMENTS RELATED TO THOSE 
                              REALIGNMENTS 

                               __________

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 20, 2006

                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

33-792 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001














                   HOUSE COMMITTEE ON ARMED SERVICES

                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK E. UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
                 Jeff Green, Professional Staff Member
               Paul Arcangeli, Professional Staff Member
                   Christine Roushdy, Staff Assistant





















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Tuesday, June 20, 2006, Significant Force Realignment of the 
  Department of Defense, Including Beddown, Support, and Other 
  Costs and Requirements Related to Those Realignments...........     1

Appendix:

Tuesday, June 20, 2006...........................................    49
                              ----------                              

                         TUESDAY, JUNE 20, 2006
 SIGNIFICANT FORCE REALIGNMENT OF THE DEPARTMENT OF DEFENSE, INCLUDING 
  BEDDOWN, SUPPORT, AND OTHER COSTS AND REQUIREMENTS RELATED TO THOSE 
                              REALIGNMENTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1
Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Grone, Philip W., Deputy Under Secretary of Defense for 
  Installations and Environment..................................     6
Henry, Ryan, Principal Deputy Under Secretary of Defense for 
  Policy.........................................................     3
Sullivan, Rear Adm. William D., Vice Director for Strategic Plans 
  & Policy, Joint Chiefs of Staff, U.S. Navy.....................     7

                                APPENDIX

Prepared Statements:

    Henry, Ryan, joint with Philip W. Grone, and Rear Adm. 
      William D. Sullivan........................................    56
    Hunter, Hon. Duncan..........................................    53

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Hayes....................................................    65
    Mr. Kline....................................................    65
    Mr. Reyes....................................................    65
    Mr. Saxton...................................................    65
    Mr. Shuster..................................................    66
    Mr. Taylor...................................................    65
 SIGNIFICANT FORCE REALIGNMENT OF THE DEPARTMENT OF DEFENSE, INCLUDING 
  BEDDOWN, SUPPORT, AND OTHER COSTS AND REQUIREMENTS RELATED TO THOSE 
                              REALIGNMENTS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, June 20, 2006.
    The committee met, pursuant to call, at 10:06 a.m., in room 
2118, Rayburn House Office Building, Hon. Curt Weldon 
presiding.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order.
    Today the committee meets to receive an update on the 
Department of Defense's (DOD) efforts to realign its forces 
around the world.
    Over the past few years, the committee has conducted 
several hearings and received additional briefings on three of 
the most significant components of the department's force 
realignment efforts: the global defense posture review, base 
realignment and closure, and the Army's transformation to a 
modular force.
    Considering that each component of this realignment would 
be a significant effort in its own right, the Department of 
Defense has a daunting task ahead in attempting to implement 
all three parts over the same short period of time.
    Today's hearing is an opportunity for the committee to 
review the department's force realignment plans and to assess 
whether it is prepared to address the many resulting 
requirements of those plans.
    Some such requirements are obvious. For instance, bases in 
local communities need new schools, medical care, family 
housing or military construction to support an influx of 
personnel resulting from force realignment. What are the 
Federal and state governments' roles in providing for these 
needs?
    Some requirements are less obvious. For instance, will the 
effect of having fewer personnel based on forward locations 
result in new mobility requirements for air and sea lift or 
perhaps additional needs for pre-positioned equipment?
    And of course, it goes without saying that the requirements 
flowing from the department's force realignments will likely 
have substantial costs. Have such costs been fully thought 
through?
    It is clear that the issues before the committee and the 
panel today are both significant and complex, so I look forward 
to hearing from our panel, which includes the Honorable Ryan 
Henry, Principal Under Secretary of Defense for Policy; 
Honorable Philip W. Grone, Deputy Under Secretary of Defense 
for Installations and Environment; Rear Admiral William D. 
Sullivan, Vice Director for Strategic Plans and Policy, Joint 
Chiefs of Staff.
    Before we receive a statement from Mr. Henry and any 
remarks each may have, let me first recognize the committee's 
ranking Democrat, my partner on this committee, the gentleman 
from Missouri, for any remarks that he wishes to make.
    Mr. Skelton is recognized.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 53.]

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Mr. Chairman, thank you.
    And I also want to extend our welcome to the gentlemen and 
especially the gentleman down on the far right.
    Mr. Grone, good to see you back, a familiar face on the 
other side of the table. It is good to see you.
    Thank you very much, Mr. Henry and Admiral Sullivan.
    I am pleased our committee is directing attention to the 
global repositioning. It is a movement of some 70,000 troops to 
the Continental United States (CONUS) and, of course, it is a 
massive undertaking.
    Unfortunately, these moves are occurring while the 
Department of Defense is already under strain due to the war on 
terror, the war in Iraq, base realignment and closure (BRAC), 
and the Army's modularity program. And moving some 70,000 
troops, in my opinion, presents a risk not only because of what 
is happening today but because of what may happen down the 
road.
    Our military must be ready to deter or to counter any 
threat it faces, and they often come from unexpected places. We 
know this. I might point out to our witnesses that this is my 
29th year in Congress, and during that time we have had 10 
military confrontations, each of which has resulted in death or 
injury.
    So our military must be ready to deter or counter any 
threat that it faces. We must have a strategic force and basing 
posture that is agile, that puts us in a position to deal with 
all range of potential threats.
    The global repositioning must place the right forces and 
the right equipment in the correct locations, along with, of 
course, the strategic lift that is required to get them to the 
fight. Because we can't know when and where our military will 
next be needed, we must examine the strategic implications.
    There is no question that the war on terror has required 
the Nation to reorient its global posture to meet the emerging 
threats that came about after 9/11, and I fully appreciate the 
complexity of managing so many pieces required to make these 
moves. It is like playing chess on a major scale.
    That said, I must point out that it is very important that 
our troops and their families not be overlooked in the rush to 
reposition units. Troops must have barracks, motor pools, 
training areas. Families must have housing, schools, medical 
facilities. And all of this has to work together.
    Now, when the music stops we can't afford to have our 
troops or their families--or their families--left without a 
chair. The Department of Defense initial estimates for the cost 
of these global moves were $9 billion to $12 billion.
    Now, I would appreciate during your testimony your best 
judgment on what you think those moves may be, and added to 
BRAC and the modularity transformation, you know, the cost 
could very well run up to $100 billion.
    Because of this cost and the enormous strategic 
implications, the Department of Defense must very closely 
manage the moves. Congress must receive clear time lines, cost 
estimates that will allow us to evaluate the progress.
    We must also be kept fully informed on how global 
repositioning will answer the threats to our nation--enormous 
undertaking. And Congress must ensure that these moves will 
leave us with a stronger global posture--a real challenge.
    And I thank you for testifying before us and giving us your 
best thoughts today. Thank you.
    The Chairman. I thank the gentleman.
    The entirety of our witnesses' prepared statements will be 
entered into the record without objection.
    Secretary Henry, the floor is yours.

 STATEMENT OF RYAN HENRY, PRINCIPAL DEPUTY UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Secretary Henry. Thank you, sir.
    Chairman Weldon, Representative Skelton and members of the 
committee, thank you for the opportunity to appear before you 
today to discuss the department's continuing effort to realign 
our global defense posture for a new era.
    Joining me today, as you mentioned, are Deputy under 
secretary Phil Grone and Vice Director of the policy shop on 
the joint staff Rear Admiral William Sullivan.
    I would like to submit my full statement for the record and 
make a few brief remarks at this time.
    First of all, we share your concerns, Mr. Chairman and 
Representative Skelton, and we hope to demonstrate today the 
department's initiatives to adequately address them.
    We have regularly discussed the global defense posture with 
Members of Congress and this committee throughout the review 
that we have been conducting over the last several years and 
providing over 50 briefings here to the Congress.
    Most recently, we provided you with a comprehensive update 
in response to the fiscal year 2006 National Defense 
Authorization Act's reporting requirement.
    And I would like to emphasize, Mr. Chairman, as I suggested 
in my letter to Chairman Hunter for that report, that the 
global defense posture is not one dimensional, nor may it be 
accurately characterized as a single initiative.
    Rather, the strategy is a forcing mechanism for multiple 
initiatives that collectively enable this administration's 
defense transformations agenda at home and, specifically in the 
case of global defense posture, abroad.
    As we continue to progress in implementing this strategy, 
we update our posture plans, and we will continue to infuse the 
policy priorities reflected in the global posture realignment 
into the daily operations of the department.
    Mr. Chairman, this multidimensional strengthening of 
America's global defense posture is resulting in profound and 
overdue reordering of America's military forces.
    Prior to this realignment, much of our in-place posture 
reflected the Cold War structure--forward-stationed forces 
configured to fight from where they were currently based.
    Now, nearly 16 years after the end of the Cold War, we have 
a body of operational experience that clearly demonstrates that 
the premises underlying our posture have changed fundamentally.
    In the future, our forces need to be able to rapidly 
project power into operating theaters far from where they are 
based. Operations Enduring Freedom (OEF) and Iraqi Freedom 
(OIF) and the 2004 tsunami relief and the 2005 Pakistan relief 
confirm these principles.
    In response to President Bush's August 2004 announcement 
that we would begin this realignment effort, the department has 
begun establishing a diverse network of relationships and 
capability better suited to contending with the dynamic and 
uncertain geopolitical landscape of today.
    Mr. Chairman, through the implementation of these posture 
plans, we are reshaping our ability to support diplomacy and 
build stronger partnerships to contend with uncertainty and 
project the necessary military power in and across theaters.
    Many of these posture changes are already under way. In 
Europe, we no longer need heavy maneuver forces as the central 
element of our defense posture. We are transforming to a 
posture characterized by lighter, more deployable ground 
capabilities that better supports NATO's own transformation 
goals.
    And we have leading-edge air and naval power and advanced 
training facilities in place. Our presence in Europe is also 
shifting south and east in orientation with the beefing up of 
the 173rd Airborne Brigade in Italy, the strengthening of 
ground and air rotations in southern and southeastern Europe, 
and increased access to facilities and training sites in the 
Romanian and Bulgarian areas as part of establishing the 
Eastern European task force.
    Additionally, we are redeploying two legacy maneuver 
divisions from Europe to the United States and replacing them 
with our transformational Striker capability. These posture 
changes, many of which are in motion already, will allow for a 
more rapid deployment to the Middle East, Africa and other 
potential hot spots.
    In the Asia-Pacific region, we are improving our ability to 
meet our alliance commitments by strengthening our forces' 
deterrent effect and our capability for rapid response with 
forward deployment of additional expeditionary maritime 
capabilities and long-range strike assets in Alaska, Hawaii and 
Guam.
    We also seek to help allies in the region strengthen their 
own military capabilities and to solidify relationships with 
newer partners who can help in the prosecution of the Global 
War on Terror.
    On the Korean peninsula, our planned enhancements include 
the reallocation and consolidation of stationed forces from the 
Seoul area to two hubs in the central and southern sections of 
the country. We are strengthening our overall military 
effectiveness for the combined defense of the Republic of 
Korea.
    And through the defense policy review initiative, we have 
consulted closely with Japan on several important force 
realignment initiatives that will have far-reaching beneficial 
impact for the U.S.-Japanese alliance.
    Among these initiatives is a significant realignment and 
reogranization of the Marine Corps posture in Okinawa to 
include relocating approximately 8,000 Marines and 9,000 
dependents from Okinawa to Guam.
    In the Middle East, we seek a posture that builds on the 
cooperation and access provided by host nations during 
Operations Enduring Freedom and Iraqi Freedom as the basis of 
our long-term cooperative relationship in the region and our 
ability to prosecution the Global War on Terror.
    We also aim to strengthen our capabilities in other parts 
of the Central Command (CENTCOM) area of responsibility, 
including the Horn of Africa and central Asia.
    In Africa and the western hemisphere our aim is to broaden 
the relationships, build partnership capability, develop 
contingency access and facilitate practical security activities 
without creating new bases or permanent military structure.
    Let me take a moment to address key aspects of our global 
defense posture--the quality of life of our soldiers, sailors, 
Marines and airmen. The president and secretary have made it a 
top priority to relieve the stress on our military forces and 
their families.
    Changing the way in which we posture U.S. forces globally 
was driven in large part by the president's desire to keep 
faith with our service members and their families.
    He directed that rotations of our military forces into 
forward areas be balanced by providing more stability at home, 
with fewer overseas moves, less disruptions for families and 
stronger support mechanisms.
    Plan changes also support service transformation 
initiatives such as the Army's modularity and unit rotation 
concepts, the Navy's fleet response concept and the Air Force's 
ongoing efforts to improve its air expeditionary force.
    Mr. Chairman, the multidimensional aspects of this 
undertaking to our global defense posture encapsulates numerous 
supporting efforts being executed every day across the 
Department of Defense and State.
    These include our consultation negotiations with allies and 
partners, our ongoing deliberations with Congress, the 
interagency process, the base realignment and closure process, 
and the implementation of service transformation initiatives 
described earlier. These processes are independent, each 
informing, supporting and reinforcing the others.
    Mr. Chairman, I appreciate this committee's vision and 
support as we seek to transform our defense relationships, our 
presence and footprint overseas to better deal with the post-9/
11 strategic landscape we find ourselves in.
    We will continue to consult with this committee and Members 
of Congress as we seek your support to implement these needed 
adaptations to strengthen America's global defense posture. 
Thank you.
    [The joint prepared statement of Secretary Henry, Secretary 
Grone, and Admiral Sullivan can be found in the Appendix on 
page 56.]
    The Chairman. Thank you for your statement.
    Secretary Grone.

STATEMENT OF PHILIP W. GRONE, DEPUTY UNDER SECRETARY OF DEFENSE 
               FOR INSTALLATIONS AND ENVIRONMENT

    Secretary Grone. Chairman Weldon, Mr. Skelton and 
distinguished members of the Committee on Armed Services, I am 
pleased to appear before you this morning with my colleagues to 
discuss the status of the department's efforts to implement the 
realignment of the nation's global defense posture, including 
those aspects associated with the 2005 round of base 
realignment and closure.
    From an infrastructure perspective, the president's budget 
request and the department's management approach continue the 
effort to reposition, to reshape and to sustain the nation's 
military infrastructure installation assets.
    From a strategic perspective, the implementation of the 
2005 base realignment and closure round as well as the 
department's global defense posture review serve as key 
elements in the transformation of the armed forces.
    The department developed over 220 base realignment and 
closure recommendations for consideration by the independent 
BRAC Commission, with emphasis on those actions that would 
support mission transformation across the total force, enhanced 
efficiency in the business and support operations of the 
department, improved jointness in interoperability and the 
conversion of unneeded assets to war fighting requirements.
    The department will carry out 25 major base closures, 24 
major realignments and 765 other actions. The scope of 
implementation in terms of the actions to be undertaken and the 
number of installations affected is nearly twice those 
undertaken in all prior rounds of BRAC combined.
    In addition, 40 percent of the recommendations affect more 
than one component, placing a premium on coordination and joint 
approaches. Through BRAC the department will also facilitate 
the return of forces stationed abroad to new permanent 
stationing in the United States.
    Our efforts in BRAC and the broader global defense posture 
initiative are linked and the department's BRAC recommendations 
were fully informed by that global defense posture review.
    Nowhere is that more true than for the Army, which will 
have fully one-third of the Army in motion due to repositioning 
through BRAC, global defense posture realignment and the Army's 
modular force initiative.
    After BRAC implementation is complete, we expect 
approximately $4 billion in annual recurring savings to accrue 
from BRAC and another $1 billion from the BRAC-related global 
defense posture moves.
    Through BRAC and all of our global defense posture efforts, 
we will shed assets amounting to approximately $45 billion in 
plant replacement value, most of which are overseas.
    The investment required in fiscal year 2007 for BRAC is 
significant and, when combined with the funds provided by 
Congress in fiscal year 2006, this investment will permit us to 
complete planning and to initiate construction activities to 
ensure facilities are ready in a timely manner for the 
extraordinary transformation of military infrastructure in 
which we are now engaged and for which we have a legal 
obligation to complete by September 2011.
    The department appreciates the support of this committee 
for the funds necessary in the coming fiscal year to carry out 
the BRAC recommendations and related global defense posture 
initiatives, including $883 million supporting the return of 
forces from Germany to Fort Bliss, Texas, and Fort Riley, 
Kansas.
    And combined with the $338 million in the current fiscal 
year, this investment will keep the Army's plans on track.
    We also appreciate the support of the committee for the 
funds requested by the president to reposition the 173rd 
Infantry Brigade Combat Team (IBCT) to northern Italy. This 
initiative is a critical portion of the combatant commander's 
theater transformation plan.
    Mr. Chairman, again, we are grateful for your support and 
the support of the committee, and we look forward to continuing 
to work with this committee to conclude these initiatives 
successfully. Thank you, Mr. Chairman.
    [The joint prepared statement of Secretary Grone, Secretary 
Henry, and Admiral Sullivan can be found in the Appendix on 
page 56.]
    The Chairman. Thank you.
    Admiral Sullivan.

 STATEMENT OF REAR ADM. WILLIAM D. SULLIVAN, VICE DIRECTOR FOR 
  STRATEGIC PLANS AND POLICY, JOINT CHIEFS OF STAFF, U.S. NAVY

    Admiral Sullivan. Chairman Weldon, Representative Skelton, 
distinguished members of the committee, on behalf of General 
Pace let me first thank you for the support that this committee 
provides to our men and women in uniform.
    Mr. Henry has clearly laid out the strategic rationale for 
the realignment of our global defense posture. Let me add to 
what Mr. Henry has said by making the point that this effort 
has been operational from the beginning.
    By that, I mean that the specific recommendations for force 
posture changes have come from our geographic combatant 
commanders and have been informed by inputs from our functional 
combatant commanders, most notably the U.S. Transportation 
Command, U.S. Special Operations Command and the Joint Forces 
Command, which serves as our joint force provider.
    In formulating the force posture for our future, our 
combatant commanders have carefully considered the impacts on 
operational contingencies that might occur in their areas of 
responsibility on their ability to train forces assigned and 
forces operating within their areas of responsibility and their 
responsibilities for conducting theater security cooperation.
    In each case, the risks to their ability to execute these 
responsibilities were carefully considered before their 
proposal were put forth to the chairman and secretary of 
defense for consideration and for synchronization across all 
combatant commands and services.
    Finally, I would emphasize that this is an iterative 
process that will evolve over time as the world's situation 
evolves. In some cases, changes have already been set in motion 
or have been completed.
    In other cases, the recommended changes are further in the 
future and will be continually evaluated and updated as 
necessary. I look forward to your questions. Thank you, sir.
    [The joint prepared statement of Admiral Sullivan, 
Secretary Henry, and Secretary Grone can be found in the 
Appendix on page 56.]
    The Chairman. Thank you, Admiral.
    Mr. Grone, in your statement verbally, you mentioned, I 
think, that in ridding ourselves of primarily overseas assets--
you assigned a dollar figure to it. What was the dollar figure?
    Secretary Grone. The combination of our closure and 
realignment recommendations as well as the assets that we would 
return over time to host governments--the combination of those 
is $45 billion worth of----
    The Chairman. Forty-five?
    Secretary Grone [continuing]. Forty-five, sir, plant 
replacement value of the assets.
    The Chairman. Forty-five what, million or billion?
    Secretary Grone. Billion.
    The Chairman. Billion dollars.
    Secretary Grone. Yes.
    The Chairman. What return do we get for that turning over? 
Do we get credits? Do we get actual dollars? Do we get good 
will? What do we get for that $45 billion that we are turning 
over?
    Secretary Grone. Well, it will, frankly, vary by the host 
nation concerned. I mean, a good deal of the funds that are 
being expended to reposition United States air forces, for 
example, in Germany to Ramstein and to Spangdahlem from the 
former Rhein-Main air base.
    A good portion of those funds are payment in kind 
contributions as a result of negotiation between the United 
States and the German government over facilities that were 
returned prior to this initiative. And a similar process will 
go forward as we return assets in Germany under the current 
initiative.
    In Japan, for example, the status-of-forces agreement 
(SOFA) doesn't provide for residual value, and so the 
opportunity there is a bit different, but also in the case of 
Japan we get significant contributions from Japan for the 
support of our forces in terms of hard assets in support.
    And we just concluded a set of discussions with the 
Japanese on how we will reposition Marines from Okinawa to Guam 
that provides for a fairly significant Japanese contribution to 
facilities on U.S. soil.
    So it will vary by location, but the important thing from 
our perspective and from a management perspective is that 
assets we no longer require are being returned and assets that 
we no longer need to support we will not be spending money on.
    The Chairman. We have just gone through--are going through 
right now a process that was very difficult in the Congress 
that you referred to in your testimony of BRAC. When do you 
envision, if at all, the next round of BRAC to be proposed by 
the administration or the next administration?
    Secretary Grone. Well, we currently have no pending 
proposal for an additional round of base closure, and it 
certainly would be beyond my authority to try to represent the 
views of a future administration.
    But the secretary's view is that we should periodically 
come back every five years or ten years or so to this question 
of looking at our infrastructure on a comprehensive basis, but 
wee have no current proposal pending to initiate a new round.
    The Chairman. Do either of you have any comments on that 
long term?
    Secretary Henry. Yes, sir. As far as BRAC does, this last 
round of BRAC we think put us in the right position we need to 
be for the world's strategic environment that we find ourselves 
in today.
    If it were to adapt and change, then we would want to, 
working with Congress, come back and look at that. But we think 
that we have both the steady state capacity and the surge 
capacity to meet what our current needs are.
    You also asked Secretary Grone regarding what do we get in 
return. And while this process has been fiscally informed it 
was driven by capabilities. And the real return in investment 
we get is the capabilities of our force.
    And we find those capabilities in the partnership that we 
are developing with the nations, not only the host nation that 
we are working with but nations in the region, where we are 
sharing training opportunities.
    We think that it improves our steady state operating 
capabilities as far as we move to new operating patterns. And 
we think that it allows us to respond much quicker in a surge 
response capability to some sort of crisis.
    So what drove this, as Admiral Sullivan said, were the 
operational commanders coming forward, saying that we were mal-
positioned for the world that we found ourselves in, and we 
needed to look at that realignment.
    The Chairman. Admiral, anything?
    Admiral Sullivan. All I would add, Mr. Chairman, on the 
subject of BRAC is that all of the service chiefs have 
testified on the importance of BRAC and on the importance of 
the ability to eliminate unnecessary infrastructure.
    The Chairman. And I would just say--and this has been a 
topic since I have been here on this committee--what we are 
constantly looking for is the actual dollar payback after the 
fact of closing military bases.
    We always talk about what the proposed savings are, but 
what this committee has consistently asked for is, after the 
fact, show us what actual savings have occurred.
    Now, you can't answer that question today, but that is 
something this committee will continue to ask, certainly for 
the time that you are all in office and for the foreseeable 
future.
    Secretary Grone. Mr. Weldon, if I might on that point, we 
continue to believe that the annual recurring savings, 
certainly from BRAC, as well as from our overseas realignments 
are as I stated them in my oral statement.
    As a matter of management initiative, we recognize the 
department in the past has been criticized for its inability to 
track savings over time.
    And we are putting into place the management discipline 
that is necessary to track those savings over time so that we 
can provide some surety to the Congress and to the Government 
Accountability Office (GAO), as well as other commentators and 
people who are observing this process, the savings that we 
assert are there are there, and that we are expending those 
resources wisely.
    The Chairman. The distinguished gentleman, the ranking 
member, is recognized.
    Mr. Skelton. Thank you, Mr. Chairman.
    Secretary Henry, overall, can you give us a picture overall 
of the reason for the changes? And my judgment is that since 
the Cold War has disappeared that is one reason for a good 
number of the realignments.
    Can you, in a nutshell, give us a few examples of the 
ending of the Cold War--what that has brought about in the 
realignment process?
    Secretary Henry. Yes, Congressman. When we look at Europe, 
we don't see ourselves in the foreseeable future fighting a 
conflict in Europe.
    But we had heavy forces stationed there for that 
contingency, which was a result of where the battle lines 
stopped at the end of World War II and where they needed to be 
positioned and places they needed to fight from, from their 
garrisons, during the Cold War. That is what we anticipated.
    The circumstances we find ourselves in are significantly 
different. We see the operating areas in which we are 
interested in working with partners moving both to the east and 
to the south, and so that is what the realignment has done with 
the Eastern European task force and also the buildup of the 
173rd brigade in Italy.
    As we look to Asia, in the area of Asia, as part of the QDR 
and the global force posture, there is a realignment, more of 
an emphasis on a deterrent capability. We are building up 
capabilities in Alaska, in Hawaii and Guam.
    And then we are repositioning our forces--realignment in 
the Japanese islands and specifically moving some of our 
headquarter Marine forces from Okinawa down to the Guam area.
    We are repositioning ourselves, we think, more in an 
operational aspect on the Korean peninsula, where we had many 
bases scattered throughout the peninsula, going to two major 
hubs.
    Mr. Skelton. I understand that one.
    Secretary Henry. Yes, sir. So those are a number of the 
steps that we are taking.
    Mr. Skelton. We are leaving Iceland.
    Secretary Henry. Yes, sir. We will be out of Iceland by the 
30th of September of this year.
    Mr. Skelton. In light of just what you said, we are leaving 
or taking considerable forces out of Japan, is that correct?
    Secretary Henry. Out of Okinawa. We are moving 8,000 
Marines to Guam. Out of Japan, we are actually repositioning 
forces to be better situated. But the other islands, the four 
main islands, we are not moving that many forces.
    Mr. Skelton. So we will be moving some into the other 
islands, is that correct, in Japan?
    Secretary Henry. We are switching the alignment between--
for noise abatement purposes on some of the aircraft we have 
going from Atsugi down to Iwakuni, and so we are moving forces 
around so they are better aligned to be able to work better 
with the local populace.
    Mr. Skelton. Thank you.
    I have one question for Secretary Grone. In visiting 
various Army installations in particular, we notice that the 
old wooden structures that housed World War II soldiers have 
been torn down, and I think most of them are probably gone by 
now.
    But I also understand that there will be a number of 
temporary facilities that will be built to train and to 
maintain the force. Would you explain the dichotomy as I see 
that, Mr. Secretary?
    Secretary Grone. Well, Mr. Skelton, the approach we are 
trying to take with temporary facilities--the approach the Army 
has taken is to use temporary facilities only where they are 
absolutely necessary, with an emphasis on the word 
``temporary.''
    The Army has no intention and certainly the secretary has 
no desire to see the emergence of a new generation of World War 
II wood. In fact, in this year's budget request, the Army has 
requested $276 million worth of military construction 
facilities to replace and make permanent facilities that for 
management reasons and missions reasons required temporary 
facilities within recent years.
    And for fiscal year 2007 the Army currently has no plans to 
utilize temporary facility solutions in lieu of a permanent 
construction solution. So we do need the flexibility to use 
temporaries where necessary, but the Army is quite aware of the 
legacy that temporary facilities--and the cost of those over 
time that those require.
    And so we are doing everything we can to strictly limit the 
use of them and, as I say, we are taking some management 
approaches here in the very near years to begin to make 
permanent those things which require temporary facilities in 
the recent past.
    Mr. Skelton. Thank you, sir.
    The Chairman. I thank the gentleman.
    The gentleman from New Jersey is recognized, Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    Gentlemen, I have two questions, one that has to do with 
overseas basing and one that has to do with basing here at 
home.
    One of the key tenets of the Department of Defense's plans 
to reposition U.S. military forces includes a conceptual shift 
away from larger and more static bases to ones comprised of 
smaller, more agile units where deployments on a rotational 
basis would take place.
    With a significant increased dependence on a rotational 
presence, forward operating sites and cooperative security 
locations and cooperative and forward operating sites would all 
be employed.
    Now, I guess what I am curious about is the type of--what 
kind of input did we get from combatant commanders in arriving 
at the decision to use this formula?
    And on the CONUS side--let me just ask these both and then 
let you guys answer them. On the CONUS side, I understand that 
we have a concept where we will employ six new power projection 
platforms, and I am not quite sure that is the right word or 
the right title.
    And the reason that I am, of course, interested in this is 
that Fort Dix may very well be one of them, and I wondered if 
you would describe the concept and give us your thoughts on 
that subject as well. Thank you.
    Secretary Henry. Thank you, Congressman. I will go ahead 
and start specifically on the roles of the combatant 
commanders, and I am sure Admiral Sullivan will want to 
supplement my remarks, and I will leave it to Mr. Grone to talk 
about the CONUS structure.
    In regards to the inputs and the structures that we came up 
with, this was something that over a series of about 18 months 
we had a series of individual meetings and collective meetings 
at the combatant commanders conferences with the combatant 
commanders.
    All the decisions that we operated on were inputs that we 
received from the combatant commands. They were the ones that 
initiated the plans. The role actually that we played at 
headquarters was one of harmonizing them to be able to work 
together.
    But they were all initiated from the regional combatant 
commands that have the expertise. And it was their realization 
that our operating patters were going to change We kind of 
grouped them into two different fundamental ones.
    One is the steady state operations, which is one where we 
are doing security cooperation, and we are trying to build 
partnership capability rather than just being garrisoned in one 
place.
    The other one is our ability to surge, and in looking at 
that we found out that most times we could generate force from 
the United States, where there were no political encumbrances, 
quicker than we could from overseas locations.
    But the specific lay-down came from the combatant 
commanders.
    Admiral Sullivan. I think all I would add to that is that 
the concept between those two different types of facilities 
that Mr. Henry described is that we want access to be able to 
train and to deploy in the event of contingencies to various 
regions around the world without having to bear the burden of 
major operating bases with all of the infrastructure and 
support facilities that go along with that.
    So the idea behind the forward operating site is a little 
bit more robust than a cooperative security location. We might 
have a small U.S. military presence there, not likely with 
families and so forth that would require infrastructure in 
order to be able to train and operate when necessary.
    A cooperative security location is even more austere, and 
we may not even have any U.S. personnel permanently assigned 
there, but we would have arrangements in place with the host 
nation to have a warm base, if you will, so that if forces 
needed to flow in there for exercises or contingencies there 
would be fuel arrangements in place and an airport--Air Force 
or air--runway facilities and so forth that could support those 
kinds of operations.
    And so the combatant commanders' input was really to look 
at all of that across their areas of responsibility (AOR) and 
figure out what made the most sense in terms of potential 
contingencies in their AOR as well as cooperation with other 
nations.
    Secretary Grone. Mr. Saxton, the question of power 
projection platforms--we have had a number of different ways of 
referring to those over the years, and frankly, I would like to 
take back for the record sort of the way the Army is thinking 
about that now in terms of the six that you referred to.
    But certainly in the case of power projection and 
mobilization, one of the key things that we have attempted to 
do with this round of BRAC is to, as you know, at Fort Dix, 
create joint mobilization centers that would be able to support 
the projection of power, the organization of the forces.
    As I understand it, the Army is still trying to think a 
little bit through this question of the power projection 
platform mobilization piece, and so I would prefer to come back 
and get that to you for the record, if we could.
    [The information referred to can be found in the Appendix 
beginning on page 65.]
    The Chairman. I thank the gentleman.
    The gentleman from Texas is recognized, Mr. Ortiz, for five 
minutes.
    Mr. Ortiz. Thank you, Mr. Chairman.
    I want to thank our witnesses for being with us this 
morning.
    Secretary Henry, you know, since the beginning of Operation 
Enduring Freedom and Iraqi Freedom, over the past three years, 
there has been a heavily--reliance on the transportation and 
pre-position capabilities.
    And I can remember during the first war, Desert Storm, you 
know, it took at least six months, seven months to pre-position 
our troops, our equipment, and in fact, some of us traveled to 
many countries--I traveled to Egypt, I traveled to South Korea 
and Japan--trying to see if we could get monetary support for 
troop support.
    What concerns me is that as I look at your recommendations 
as to moving the troops, you know, moving some to Guam, and 
maybe utilizing Romania and Italy, I am concerned, I mean, I 
just want to know, is this being done now? I know some troop 
movement is being done now.
    Is it wise to do it right in the middle when we are 
fighting two wars? And I go back to the first Gulf war. It took 
us 6 months to be ready to go against Saddam Hussein.
    And the other thing that worries me is you mention that 
funding requested in fiscal year 2007, the president's budget 
for overseas changes supports many of the initiatives.
    Now, when you say many, I was just wondering which one does 
he support and which one does he not recommend. You know, we 
want to work with you. We want to help you. But there is so 
much going on. There is so much on our plate. Maybe you can 
answer what is in the president's budget and what he supports.
    And the other concern that I have is is this in conjunction 
with the Overseas Base Closing Commission that we have? Because 
I know that the Base Closing Commission and the Overseas Base 
Closing Commission were not synchronized. They weren't talking 
to one another.
    Maybe you can at least respond to some of the concerns that 
I have.
    Secretary Henry. Thank you, Congressman. As far as the 
transportation burden and the use of pre-positioning, we share 
your concerns, and that is actually--in looking at what 
happened in the Gulf War, and taking the lessons learned that 
we had from Enduring Freedom and Iraqi Freedom, that is largely 
what motivated the strategic re-look.
    As you are probably aware, we had what we called the iron 
mountain of all this equipment that we put into theater, much 
of which we never brought back. So the combatant commanders 
looked and said is there a different way to operate. And one of 
the things that we have started to emphasize is reach back.
    What are the things in an information age, things that you 
do here in CONUS to support operations that you don't 
necessarily have to put forward? And so we have looked at 
opportunities to be able to do that.
    Additionally, we looked at how we had to move materiel and 
some of the problems we had in moving especially some of our 
forces out of Europe. In taking all those, that is what drove a 
lot of the considerations that we came up with.
    You also asked the question of why now, basically, is this 
a good time to do it, there are many things that we are doing 
operationally. Any change is not without risk, but we think the 
risk of not doing this far exceeds the risk of what we are 
doing.
    And so, in looking at how we operate today and the 
challenges that we have for the foreseeable future, we have 
tried to do what we can to position ourselves in the very best 
way we can operationally.
    We have been sensitive to the issue of the transportation 
burden. Over the two years leading up to the Quadrennial 
Defense Review, we did what we call the mobility-capability 
study, a major study, primarily led by the transportation 
command, to look at what the burden would be, what our 
transportation needs would be.
    And we specifically looked at, as we implement the global 
force posture, would that increase the burden. And for steady 
state operations it appears that we are well within the 
capabilities that we have to be able to meet our transportation 
needs.
    And for surge operations, in many ways we are able to make 
the operational time lines much quicker by being able to be 
stationed and have the majority of the force here in CONUS.
    So we have taken those considerations on board. You are 
correct in saying that there are a lot of tasks that we are 
doing simultaneously. It is requiring some people to work 
harder than they have in the past. But we think that we owe it 
to our soldiers and sailors and airmen that are forward on the 
front lines to give them the very best global posture that we 
can.
    Mr. Ortiz. You know, Chairman Weldon and I, we took a tour 
right before 9/11. We went to visit 25 of the worst bases in 
the United States, the worst. One of them was where I went 
through basic training. That was Fort Hood, where they were 
still using some of the same facilities that I went through 
basic training back in the middle 1960's.
    I don't know whether those bases have been renovated, but 
when I hear about bringing hundreds of troops back to the 
United States, my question is, where are we going to put them? 
And I am pretty sure you all have looked at that.
    At the same time, equipment that is being left behind 
either by the National Guard, the Reserves, because the 
equipment is not working anymore--it is, you know, completely 
destroyed--bring them back.
    And when we talk about moving all this equipment, I mean, I 
am just concerned. I know that you gentlemen are doing your 
planning, but I am just very, very concerned about what I see 
now.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Maryland, Mr. Bartlett, is recognized 
for 5 minutes.
    Mr. Bartlett. Thank you very much. Mr. Chairman, 
remembering all those years I sat in the lower rows as time ran 
out and I never got to ask my questions, I yield my time to Mr. 
Conaway, who was the lowest-ranking member here at gavel fall.
    Mr. Conaway. Well, I thank my colleague from Maryland for 
those--and also yielding his time. It is kind of like putting 
Fort Hood in the worst places on the Earth. I am not sure I 
would do that either.
    But thank you, gentlemen. As we bring all these troops back 
from Europe and their families, it seems to me there is going 
to be potential for a tremendous impact on local communities. 
The Appropriations Committee had testimony from Fort Bragg, 
people around Fort Bragg, on the impact there on the local 
school systems and the other infrastructure pieces that I guess 
would be off post.
    Mr. Grone, can you visit with us about what the role of the 
government will be in terms of assisting school districts and 
other local entities with their infrastructure as well as how 
do we not overbuild in those circumstances when, you know, 5 
years from now we decide to move them somewhere else?
    Secretary Grone. Well, Mr. Conaway, that is a very 
important question that you raise, and it goes to the heart of 
the question of how we intend to implement, and the 
relationship between the department, our interagency partners 
and the local communities.
    We have moved out fairly aggressively after the BRAC 
recommendations became law in November to begin the appropriate 
dialogues at all levels of government--federal, state, local--
on how communities are going to work in the transition, both 
those communities that are going to experience a closure or a 
major realignment.
    And certainly, as your question suggests, those communities 
are going to experience significant growth. The president, 
pursuant to executive order, has designated or tasked the 
Economic Adjustment Committee, which is chaired by the 
secretary of defense, and which I chair the sub-Cabinet level, 
to take some critical looks at those questions.
    There are 22 Federal agencies that sit on the economic 
adjustment committee, and we are working a series of actions to 
coordinate responses in that regard.
    We had a major conference in the beginning of May with 900 
people from all across the country, communities affected by 
BRAC, with members of the Federal interagency, to talk through 
the planning and the requirements and how we get from A to B.
    And it was a first initiative, certainly will not be the 
only initiative. But the level of cooperation and coordination 
is fairly extraordinary this early in a BRAC round.
    As to the specific question of how we are going to handle 
the schools question, the department as well as the Department 
of Education, both departments owe the Congress reports here in 
the very near term. I believe a report that we are working on 
will be delivered to the Hill in July which talks about the 
education question.
    And the pattern of movement of forces, the expectation for 
the number of families and dependents that will be flowing into 
a region in any given particular year pursuant to the 
recommendations, and the management approaches that we as well 
as the Department of Education and our interagency partners are 
going to take to work with the communities on this question.
    So this is a dialogue that we are going to continue to have 
over time. The housing question, the overbuild question is a 
not unimportant one, either.
    Our policy is to rely on the private sector first, and we 
are working very carefully and particularly in Texas and in 
Kansas, where we have the first full brunt of forces returning 
from overseas to work with those local communities to ensure 
that we have the housing market calibrated about right, our 
understanding of it is about right, and that the private sector 
can respond.
    In nearly all cases, the private sector is responding, and 
where it can't, we will fill in with our housing privatization 
efforts to ensure that we have the right assets and the right 
choices for our people as they need them.
    So it is something that we are working fairly 
comprehensively. We are going to be in dialogue with the 
committee over the coming years--weeks, months, years--as a 
matter of continuing management dialogue to give you surety 
that we have, you know, the appropriate programs in place and 
that the assets are available for the local communities to move 
forward.
    Mr. Conaway. Thank you.
    Admiral, you started talking a little bit about forward 
operating sites versus cooperative security locations. Would 
you flesh that out just a little bit in the remaining time?
    Admiral Sullivan. Sure. The most austere of those two types 
of installations--and they will all be a little bit different. 
It will just depend on circumstances. But the most austere is 
something called a cooperative security location.
    And the idea there is that you have a facility, if you 
will, that our forces can fall in on, whether it is for 
training or for a real world contingency, and have enough of an 
infrastructure in place that we can operate from that facility.
    And it relies very heavily on the support of the host 
nation. We may or may not even have any U.S. military personnel 
at any given cooperative security location on a routine basis.
    A forward operating site is a little bit more robust in 
that it has some permanent U.S. military presence, but it 
doesn't bring with it all of the infrastructure that goes along 
with a main operating base, such as schools, commissaries, the 
facilities for dependents and so forth that you would expect at 
a place like Yokuska, Japan.
    But it is the same basic concept as a Communications 
Support Organization (CSO), only it is a little bit more robust 
and a more permanent presence.
    Mr. Conaway. Thank you, Mr. Chairman. I also want to thank 
Mr. Bartlett for yielding his time.
    The Chairman. I thank the gentleman.
    The gentleman from El Paso is recognized for five minutes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And, gentlemen, thank you for being here with us at this 
very pivotal time in our ability to understand the future 
plans.
    Fort Bliss is in my district, and part of the plan for 
accommodating the incoming troops from overseas and from other 
CONUS facilities is based in part on the rotation of troops in 
and out of Iraq.
    It is the sort of game that has been described as maybe 
similar to musical chairs, where as one unit deploys another 
unit comes in from theater to take their facilities.
    There is no doubt that this may be an efficient use of 
resources. However, I have a number of concerns in two 
different areas, and I want to make an additional point. And 
this concerns the Army's ability to execute the moves while at 
the same time constantly shifting soldier and units.
    The first question is what happens if the schedule for 
moving in and out of Iraq changes. Units may go into theater 
earlier or come out either earlier or later. And rotations 
sometimes, as we have seen, may be eliminated entirely.
    Has the Army and the Office of the Secretary of Defense 
(OSD) consulted with the combatant commanders so that they get 
the earliest possible notice of schedule changes--and sometimes 
affected by unscheduled events? Also, have contingency plans 
been drawn up to deal with potential OIF deployment schedule 
changes?
    The second question is if we consider this indeed a game of 
musical chairs, how do we ensure that at the end of the game no 
one is left without a place to sit. I am concerned that the 
last units to return from Iraq may end up with nowhere to land.
    At Fort Bliss, we have seen the Army, BRAC and IGPBS 
military construction plans do not include all of the 
facilities to relocate the 1st Armored Division coming in to El 
Paso from Europe.
    Have OSD and the Army programmed the funds for the out 
years to ensure that all phases of the projects, not just 
incidentally mandated by BRAC, but the funds for all phases are 
there to be executed?
    The final point I wanted to make concerns the base 
operating support budget, because we are seeing this year a 
shortage of funds, and as all of you probably know, this 
committee took exception with the Army funding at just 69 
percent in the current funding cycle.
    But the concerns are besides affecting critical services 
for military members and their families, the shortfall is 
having a major impact on the post's ability to accommodate the 
influx of troops. This shortfall is coupled with an ongoing 
hiring freeze.
    And so I am hoping that you, Secretary Grone, can enlighten 
us on how you are working to ensure that the bases have both 
the personnel and the funds that they need to plan for the 
troops coming in from overseas.
    This is very critical, at a time, as my colleagues have 
already made the point, when we are fighting two wars. We just 
passed the BRAC law. And so all of these things are swirling, 
and at the same time we are having to explain layoffs in our 
facilities, because I know Fort Bliss isn't the only one that 
is affected by the layoffs or hiring freezes.
    So if you could answer those questions, and as we go 
through this I will be glad to repeat any that you need. Thank 
you.
    Secretary Henry. Thank you, Congressman. Let me go ahead 
and take the one about the apportionment of force which you 
referred to as the scheduling, and let Mr. Grone handle the 
resourcing ones, and Admiral Sullivan might also want to 
amplify my comments.
    You are right, it is a very complicated process. It is a 
very dynamic process. One of the aspects of our global force 
posture was to change the way that we manage the force, the way 
that we made those decisions on who would go where. And we 
refer to that as global force management.
    I want to emphasize first of all a major change here is 
going from regional coordination to looking at the force in a 
global perspective, and we have made a lot of investment, put a 
lot of effort in, over the last two and a half years to develop 
this global force management.
    It is a process that currently is managed out of the joint 
staff, but we are in the process of turning that over to Joint 
Forces Command, which has the visibility over all the forces. 
They use their service component commanders from the four 
services to understand what all the forces are available.
    And as a request for forces comes in from an operational 
commander, they make the decision on what is the best 
utilization and which force is best to go. That is put against, 
in the case of Iraqi Freedom and Enduring Freedom, a plan 
developed by CENTCOM on the forces they project that they will 
need.
    But as the president has pointed out, those number of 
forces are going to be condition-based. So as we look to the 
future, we understand that there is going to be a certain 
degree of flexibility depending upon the conditions on the 
ground.
    Part of the decision process is not only who is ready in 
the training cycle but the impact that it is going to have on 
that unit and returning units. So that is all calculated in. It 
is a process which--when we first started, we were used to a 
mobilization and an employment concept where it was a surge and 
everyone in and out.
    Now that we are fighting this long war, prolonged irregular 
conflict, we understand that we have to really give a lot of 
attention to the rotation of the force. We think that we have 
learned lots of lessons over the last three and a half years of 
employing that force.
    We are able to project out at least 12 months in advance 
now and make adaptations as the operational situations demand. 
It is still not a perfect system.
    We think it is a very good system. It is much better than 
it has been in the past, and we believe that we have eliminated 
a lot of these disruptions to both units and individuals.
    Secretary Grone. Sir, the question of the facilitization of 
the moves to Fort Bliss is an important one, and as you know, 
it is a fairly sizeable part of BRAC recommendations to provide 
for the realignment of Fort Bliss and the facilities that are 
required to support the return of forces from abroad.
    Based on where we are in the planning process, and we are 
in, you know, just the very end stages of the business planning 
process for all of these recommendations, I am confident that 
over the course of the program the facilities are going to be 
there to support the forces returning to Fort Bliss from 
overseas.
    The funds that we requested, as I indicated in my oral 
statement, for 2006 and 2007 are critical to that because they 
allow us to get facilities on the ground. And in fact, in the 
2007, as you know, there is about $456 million of construction 
inside the BRAC account itself to support facilitization of the 
return of forces from abroad to Fort Bliss.
    So as we look at this from a planning perspective--and the 
Army, as they bring forces back from abroad--the notion is that 
they will not be bringing them back to facilities that are not 
capable of supporting their mission.
    So the key question that you raised about the timing of 
forces, schedules and its relationship to facilities is 
critically important, but it is one that the Army has a very 
detailed set of planning constructs to implement.
    And from a funding perspective--and I know this question 
arises in the minds of a number of members--you know, will the 
full program be funded, will we undertake all BRAC actions by 
the legal deadline, and the answer is that we will.
    The leadership has directed, the deputy secretary has 
directed that as we bring the O.E. program forward, it will be 
fully funded and account for the costs associated with those 
moves. And we will do so.
    The base operating support question is an important one. I 
recognize and understand your perspective on the Army's current 
budget profile in relation to base operating support. It is a 
key question.
    The Army leadership is examining the full range of their 
base operations support (BOS) requirements as a part of their 
ongoing business transformation exercise.
    We have an initiative within the department itself on a 
larger basis to define standards on a common basis, to try to 
find a way to build a programming model and a budget model that 
will be predictive in terms of the costs that we should expect 
to see in any given year, so that we can actually make the kind 
of budget trades up front in terms of what it is that we want 
to buy in any given year.
    I would have to sort of take for the record a more detailed 
response from the Army, but we do recognize that there is an 
issue in that area and we are taking some management 
initiatives to try to deal with it.
    [The information referred to can be found in the Appendix 
beginning on page 65.]
    The Chairman. I thank the gentleman.
    The gentleman from Minnesota, Mr. Kline, is recognized for 
five minutes.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here. I would like to talk 
about the Okinawa move. I would probably like to talk about the 
Guam portion, but I know the gentlelady from Guam is eagerly 
awaiting her opportunity to talk about that.
    So let's just talk about the Okinawa end of that. What 
would be the state of forces in Okinawa at the end of this 
proposed move? What would be there? What is left?
    Secretary Henry. I would have to get back to you, 
Congressman, on the specific numbers. It is in excess of 
10,000. I believe the number is 12,000, but I would have to go 
back and check my numbers on that. What will be there are 
pretty much the maneuver forces. Many of the headquarter forces 
are what we are moving to Guam.
    So many of the key operational forces that if we were to 
get in a conflict on the peninsula, and we would need to move 
in rapidly, will be geographically in the proximity.
    Mr. Kline. So the bases on Okinawa--and I spent many happy 
months earlier in my life living on Okinawa. The bases would 
still be the same? You would have Fatima and Hansen and Schwab? 
Would all the bases still be there? There would just be fewer 
Marines on them, or what would that look like?
    Secretary Grone. Well, the key aspect of the realignment on 
the island itself is----
    Mr. Kline. That is what I am talking about, the island of 
Okinawa.
    Secretary Grone [continuing]. Is to finally, after we 
reached agreement in 1996, but to actually provide for a 
replacement facility and to do some additional consolidations 
that will provide and free up land area that we no longer 
require, but to get our forces into a realigned position on the 
island that provides a better way of operating out of that 
location.
    So there will be some not inconsequential movement of 
forces around on the island itself. The key piece of that, and 
certainly not to the exclusion of any others, is a replacement 
facility for the current----
    Mr. Kline. A replacement facility on Okinawa, so you would 
close Fatima and have another one open up?
    Secretary Grone. Yes.
    Mr. Kline. And we would end up, generally speaking, with 
exactly the same number of bases that we have there now?
    Secretary Grone. I wouldn't say that it would be exactly, 
the same number of assets that we have there now, because we 
will be relocating a sizeable portion of the Marines off of 
Okinawa to Guam itself.
    And those facilities that we no longer require will be 
returned to the Japanese.
    Mr. Kline. Okay. That makes sense. I am just having a hard 
time envisioning what those would be. If you are going to keep 
maneuver forces there, you would still presumably need the 
northern training area and Schwab and Hansen.
    So I am just having a hard time seeing it. But I would like 
to think that if we are going to do it, we would, in fact, 
close down some bases and not just remove people.
    And with that, Mr. Chairman, I will yield back to make sure 
that my colleague from Guam has plenty of time to talk about 
Guam.
    The Chairman. I thank the gentleman.
    Secretary Henry. If we can, let us take that for the record 
and get back to you--the specifics--and give you an exact lay-
down on which facilities we will be changing.
    [The information referred to can be found in the Appendix 
beginning on page 65.]
    The Chairman. I thank the gentleman.
    The gentleman from Arkansas is recognized, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Over the last several years, when we started activating the 
guard and reserve forces for work in Iraq, primarily Iraq, but 
also in Afghanistan and other areas, one of the things that 
came up was we had--I guess at Fort Stewart we ended up with a 
lot of people on medical holds.
    There was kind of some stormy press for a while about some 
of our policies, but also a lot of it was on the places where 
they were kept. And I have heard the opinion expressed that 
well, since we used to have a Cold War level military in terms 
of numbers, that it will be easy to somehow bring people back 
home and find a place for them to stay that is the quality that 
we would want our folks to have.
    That is not an accurate statement, is it?
    Secretary Henry. I mean, it is going to take hard work. It 
is going to take some resources. We think that we are going to 
be saving at the other end, at the overseas end, but it is 
something that takes a lot of management effort, and it is 
going to take a lot of work on behalf of the different services 
that are going to implement the plans.
    Dr. Snyder. Now, when you talk about the plans, what is the 
date that you have in mind for the completion of the plan?
    Secretary Henry. That is one of the big lessons we think 
that we learned in looking back on the way we have done things 
in the past, and it has a general--of the way that we approach 
transformation.
    Transformation is not a goal, a place you end up in. It is 
a process of continual change and adaptation to the 
circumstances you find yourselves in. We do not believe that 
the world will become static geopolitically or strategically in 
the future, but that we will continue to need to adapt at all 
times.
    We are still fine-tuning the plan today. So to say that 
there is a specific end state, what we are trying to do is have 
a force that is very adaptable. We think that we will work our 
way through the major disruptions. That is a combination of not 
only the global force posture changes but the BRAC changes.
    But we will continue to need to fine-tune this as strategic 
circumstances change in the future, so there is no----
    Dr. Snyder. But that is always true. I mean, that is always 
the situation, Mr. Secretary. I mean, what we are talking about 
is the movement of troops from South Korea, from Japan, from 
Iraq, from Europe--I mean, there is a certain finite number, is 
there not, that people have in mind for when you are going to 
want to have this completed?
    I mean, I assume we want to--Mr. Grone mentioned a while 
ago that we want to have them come back and be capable of 
supporting their mission, so that means not just housing and 
barracks and family housing, but also ranges and all kinds of 
training facilities.
    I mean, you must have a thought in mind about when you want 
those folks to be back from these overseas places and when it 
is going to be up and running. I mean, you are leaving it open-
ended. For all of the 21st century, I mean, we are going to be 
adapting.
    But surely somebody has got a thought in mind by the end of 
five years, six years, eight years we expect to have all those 
people back and have the kind of facilities we want for them to 
be trained in.
    Secretary Henry. The major changes are done, as you point 
out, in the next five years, and I will turn it to Mr. Grone to 
give you specific time lines. But we are continually 
reevaluating.
    As we look to our changes overseas, different of our 
partner nations are increasing in capability. As they increase 
in capability, perhaps our percentage then for certain 
different operational plans will start to change.
    So I would be disingenuous if I didn't say it is a process 
of continual evaluation. There is no specific end state. The 
plans that we have in train right now, though--there is a 
sequence of events keyed, again, by the BRAC process and when 
we have different agreements to bring different forces back.
    Dr. Snyder. Mr. Grone, what is kind of a date, a time 
certain, for when you think most of this is going to be done, 
given Secretary Henry's thoughts that there is always going to 
be some rubbing around the gray areas as things change?
    Secretary Grone. Well, certainly, Mr. Snyder, we already 
have some of those moves and some of those efforts are already 
in the process of execution.
    Dr. Snyder. But what is the end point?
    Secretary Grone. Well, I mean, looking at it sort of in big 
chunks, the BRAC moves themselves, and certainly for the return 
of forces from abroad and facilitizing, that has to be done by 
September 15, 2011. So there is a six-year BRAC window for the 
large portion of this involving the Army, which involves return 
of forces from overseas.
    For the most recently announced set of moves in relation to 
the Guam-Okinawa question, that is the early part of the next 
decade, so in the 2012, 2014 area, and the overall realignments 
within Japan itself will be accomplished shortly after that 
window.
    So for the major and significant changes that we are 
already talking about here today, that is the window that we 
are talking about, and certainly Mr. Henry is correct.
    I mean, on some of these moves the status of negotiations 
with a foreign government may shift, either the site, the 
location, the country itself in question. It could stretch time 
lines out. It could compress them.
    But for the large initiatives that involve large forces, 
the plans in place are the plans as they have been described 
for you, which talk about 2011, 2012, 2013, 2014. It is that 
six-year, seven-year, eight-year window from where we are today 
when most of this will be accomplished.
    Dr. Snyder. Mr. Chairman, may I ask one more question?
    So as you look, let's say, at the end of the eight-year 
window, what is the total cost of that, do you think?
    Secretary Grone. Our current estimate for cost is in the $9 
billion to $12 billion range.
    Dr. Snyder. That seems lower than what other people are 
estimating.
    But thank you, Mr. Chairman.
    Secretary Henry. If I can just speak to--we are very 
sensitive to that, too, the fact that there is a number of 
different estimates out there. And we find that it basically 
comes down to the way that people do accounting.
    If they say that you are starting with a clean sheet and 
what would it cost to implement this entirely, they come up 
with one set of costs. It depends on whether they include 
things as part of Army modulization, what is in and what is out 
when they do the costs. The accounting process that we use is 
what is the incremental cost associated with this.
    We also look at that, as we redo this realignment, there 
are also savings that one realizes, too, and so it depends if 
you are looking at what the gross cost is or what the net cost 
is going to be.
    The Chairman. The gentleman's time has expired.
    The gentleman from Texas, Mr. Conaway, is recognized for 
his regular five minutes.
    Mr. Conaway. Mr. Chairman, I will yield to the next guy on 
line, please.
    The Chairman. Well, that is kind of you.
    Then the gentleman yields to--Mr. Hostettler is not here. 
Dr. Schwarz is gone. Mr. Hayes is recognized for five minutes.
    Mr. Hayes. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today.
    Question, specifically, if you will relate as best you can 
the relationship between BRAC overseas coming back to the 
states, Riley, Leavenworth. Others have mentioned--my friend 
Mr. Conaway mentioned Fort Bragg.
    Mr. Grone, I know you are very familiar with my interest 
there. Just speak in as specific terms as you can of what steps 
are being taken to particularly meet the needs of the school 
requirements.
    Now, domestic BRAC is going to add over 1,000 young people 
to come into the system in the first year. With that in mind--
and also touch on the idea of, are any funds available overseas 
to be reprogrammed for Department of Defense Education Activity 
(DODEA) or school needs such as Impact Aid?
    With that as a beginning, kind of fill me in on how you all 
are working this issue.
    Secretary Grone. Well, Mr. Hayes, it is a very complicated 
question, and by that I don't mean that it doesn't have an 
answer. It is just that there are a number of players involved 
in this, to include Federal Department of Education, the state 
of North Carolina, the local school districts and the like.
    As I indicated earlier, and I don't know whether you were--
I can't recall whether you were here for that--we owe the 
Congress a report specifically on the schools question next 
month.
    And we expect that report to be on time, and we expect it 
will lay out four locations--the growth locations, including 
Fort Bragg, what we expect to be the population shifts over 
time, when we expect families to be coming.
    And some of that is science and some of that is art, 
because depending on when units move, families make elective 
choices about whether the family comes immediately or whether 
it comes later. So we are working through all that with the 
Army right now.
    We are working through with Department of Education and our 
colleagues in the under secretary of defense for personnel and 
readiness who have the main lead on education for the 
department--they will be working through a series of summits 
with local districts here this summer to work on the 
comprehensive planning piece.
    It has also struck me, as I have engaged a number of 
superintendents in the last weeks and months--I assumed, 
incorrectly, that a number of those folks would understand all 
of the Federal assets to which they have access--grant 
programs, planning programs, and the like, some of which are 
administered by the department through the Office of Economic 
Adjustment, some of which are managed by other departments of 
the government.
    What has struck me is the assets that people are not aware 
that they have access to, so what we have tried to do is we 
have simply tried to make that information as available as we 
can, as widely broadcast as we can. It is up on our BRAC Web 
site. It is on the Office of Economic Adjustment's Web site.
    We are doing everything we can to put information in the 
hands of local people to get them access to resources that will 
help them plan and to also work on the school construction 
question. And we are looking at a number of options with that, 
with the private sector, with state and local government.
    We don't have an answer today in terms of a one-size-fits-
all solution for every location. But it is something we are 
working very hard on, and I expect we will be talking about 
that in the coming weeks, particularly after the report that we 
owe the Congress comes up next month.
    Mr. Hayes. I appreciate that, and as we all know, families, 
particularly with school-age children, are vitally concerned, 
and the folks who are waiting to receive these young folks are 
anxious.
    I had a very productive meeting with Dr. Chu in the 
Department of Education. I am encouraging you to keep that at 
the top of the list of issues.
    Secretary Henry, the question about will there be funds 
available to reprogram that will, with the reduction in force 
overseas, transfer to domestic--either DODEA or local school 
systems through Impact Aid or other possibilities?
    Secretary Henry. I apologize. I can't give you that 
specific answer right now. That is not actually my area of 
expertise. We can take that question for the record.
    I do know that the way that we have approached this is that 
there will be savings in the operation and maintenance in the 
facilities accounts. The services are the ones that are the 
keepers of those funds, and they do the adjustment to it. But 
we can get back to you with a specific answer.
    Mr. Hayes. I appreciate that. Keep her on top of the stack. 
Thank you, gentlemen.
    Mr. Chairman, I yield back.
    [The information referred to can be found in the Appendix 
beginning on page 65.]
    The Chairman. I thank the gentleman. His time has expired.
    The gentlelady from Guam is recognized, Ms. Bordallo, for 
five minutes.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And I would like to welcome the secretaries and also 
Admiral Sullivan this morning. I have a couple of questions 
here that I would like to ask.
    Secretary Henry, first let me express my congratulations to 
you and your policy team, but especially the deputy under 
secretary for East Asia and Pacific affairs, Mr. Richard 
Lawless, for completing a truly challenging set of negotiations 
on modernizing U.S. and Japanese defense posture in the 
Pacific.
    Gaining agreement with the Japanese government along with 
cost-sharing agreement necessary for implementing all 13 of the 
individual agreements made as part of a committee document 
signed by the Japanese and the United States was truly a 
remarkable achievement.
    On Futenma, I know that the U.S. negotiators have been 
seeking agreement with the Japanese since 1988, was that 
correct?
    So this being said, it is the reality that even with the 
Japanese assuming the majority of the costs of this 
realignment, including nearly $6.3 billion of investment on 
Guam, the United States has also made a large financial 
commitment to enable this realignment.
    And most of this financial commitment will be associated 
with projects on my island of Guam, where 8,000 U.S. Marines 
and their family members will move.
    And I know that U.S. Pacific Command is working at a 
tremendous pace to complete a joint Guam military master plan 
that will present an integrated and comprehensive plan for 
progress, with all of the projects necessary to welcome the 
Marines home to Guam, to establish an ISR strike capacity at 
Anderson Air Force Base and to prepare Apra Harbor for greater 
naval presence, whether rotational or permanent.
    I have led nine congressional delegations to Guam. There is 
nothing like visiting Guam when it comes to displaying for 
members of this body Guam's strategic location, our magnificent 
military bases and the patriotism of our people, themselves 
liberated from occupation by the imperial Japanese forces in 
World War II, by the same, I might add, Marine unit, the 3rd 
Expeditionary Force, that will now return to Guam. And this was 
62 years ago. And I might add that we warmly welcomes the 
Marines.
    I might note that I am hopeful that given the scale of 
defense posture changes in the Pacific and growing threats in 
the region--of course, most recently the threat from North 
Korea, that Chairman Hunter will soon lead a Congressional 
Delegation (CODEL) himself to the region. He has expressed a 
desire to do so.
    So, Secretary Henry, can you speak in greater detail about 
posture changes being made in the Asia-Pacific region, and why 
these changes are important, and how they will enable a more 
robust and responsive U.S. security posture, given the current 
and potential future threats in the region?
    And of course, I would love for you to talk about what Guam 
in particular offers within this strategy and therefore why the 
investment our nation is being asked to make in Guam's military 
facilities is both important and worthwhile.
    Secretary Henry. Thank you. Thank you for the opportunity 
to be able to address that. We are appreciative of the people 
of Guam and the way that they have welcomed these changes.
    Guam, obviously, as you are well aware, more than most, is 
strategically situated in the Pacific. It tends to be the 
forward line of presence for U.S. sovereign territory, which 
makes a significant difference when it comes to having freedom 
of action in the area.
    As we looked at what the challenges are that we have before 
us on a global basis, we saw the need to shift an emphasis 
toward the Pacific. That is an area where there is a lot of 
growth.
    We don't have an overlying multilateral alliance in the 
Pacific like we do in the Atlantic with the NATO alliance. We 
tend to have alliances with individual countries. The 
geopolitical construct tends to be much more complex there.
    And the United States has been a presence there, obviously, 
for most of the last century and we plan to be for the coming 
century. And so that has a lot to do with how we position 
ourselves.
    We have a number of interests there. One is, first and 
foremost, pursuing the Global War on Terror. And in Southeast 
Asia there are different theaters of operation that we are 
currently involved in.
    We have the humanitarian response that we have found so 
important, not only the response to the tsunami but then most 
recently the response to the earthquake. And we see ourselves 
doing those sort of operations in the future.
    There is the general need to have a dissuasive capability. 
We would like to have enough capability forward and to be able 
to provide enough stability in the region that other countries 
won't feel that it is necessary for them to build up their 
militaries for either defense purposes--and we want to have a 
certain deterrent capability so they won't build up their 
military for perhaps offensive purposes also.
    So it is a very strategic region. It is a shift in 
emphasis. That was one of the more significant things coming 
out of the Quadrennial Defense Review, and the global force 
posture realignment supports that.
    Ms. Bordallo. Thank you. Thank you very much, Secretary.
    I have one other quick question to both Secretary Henry and 
Admiral Sullivan, or Secretary Grone, if you would like to 
comment.
    Can you talk about the training opportunities and 
advantages that Guam will offer us compared to Okinawa?
    It is my understanding that moving Marines to Guam will 
enable more robust and less restricted training, including 
comprehensive training at the former housing area at Anderson 
South Air Force Base and that a full littoral war fighting 
center will be established both on Guam and the CNMI.
    So can you please discuss such advantages for training that 
Guam will provide for U.S. forces? Can you also discuss the 
types of joint training with the Navy, Marine and Air Force 
forces that Guam enables and also in inclusion of foreign 
forces such as Japanese forces in this training program?
    Secretary Henry. Well, you correctly pointed out many of 
the initiatives that we are investigating to be able to do. The 
principal advantage is that we will not be butting up against a 
local population that--the problems that we have in Okinawa.
    So we need to be mindful of that, though, as we move to 
Guam and how we position the forces there. The training 
opportunities we think are more robust in Guam and in the local 
operating area. We think that specifically from the aviation 
capability it is not as dense as far as the commercial airways 
go.
    And not only the--as we move further south, we will be 
better able not only to work with the Japanese but our 
Southeast Asian allies also. And not only do we have the 
training capability that we have in Guam, but we are also 
working with the Australians to have some capability there, so 
we will be able to use both of those capabilities.
    So we feel that it is a significant plus not only in the 
positioning of our forces but the on-station readiness that 
they will be able to have.
    Admiral Sullivan. I think Mr. Henry covered that quite 
well. I mean, we have a lot--five of our treaty partners are in 
Asia, the Philippines, Thailand, Japan, South Korea and 
Australia, and the opportunity to cooperatively train together 
in the area around Guam is very good, especially with the co-
location of our Air Force, Marine Corps and naval forces in the 
same location.
    Ms. Bordallo. Secretary Grone, do you have any comments to 
make?
    Secretary Grone. I have nothing to add.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    The Chairman. The gentlelady's time has expired.
    The gentleman from North Carolina is recognized for five 
minutes.
    Mr. Jones. Mr. Chairman, thank you very much, and I have 
got to take a point of personal privilege. I think the 
committee knows that the great state of North Carolina is proud 
of its military, its NASCAR, its basketball, college 
basketball, and now the Carolina Hurricanes have become the 
winner of the Stanley Cup.
    And Don Imus said he didn't know that they even played 
hockey in North Carolina, so anyway.
    The Chairman. There is a battle between Guam and North 
Carolina here today.
    Mr. Jones. Mr. Chairman, thank you, and it is good to see 
the panel.
    Mr. Grone, you might have said this in answering the 
question from the chairman at the time, but what are the 
projected savings after this round of BRAC is finished--I mean, 
the bottom line projections?
    Secretary Grone. The projection in annual recurring savings 
as we left the commission process was approximately $4.4 
billion in annual recurring savings.
    Mr. Jones. $4.4 billion?
    Secretary Grone. Yes, sir.
    Mr. Jones. Okay. The reason I ask that, when I came to 
Congress, we were $4.9 trillion in debt as a nation. And the 
first time that Secretary Rumsfeld appeared before this 
committee after he had been nominated and confirmed, he said to 
this committee--and I know he was very sincere; I don't 
question that at all. And certainly, he didn't know we would be 
in Iraq or Afghanistan or anything at that time.
    But he was going to do everything--and I know that from 
some of these programs that you all are talking about today and 
projections that probably he is on course--but that he would do 
everything he could to save the taxpayers money.
    The reason I bring this up--I have two questions. They will 
be short questions with short answers, actually.
    But, Mr. Henry, I wanted to ask you, you know, the people 
in my district--and we are proud of Camp Lejeune and Cherry 
Point and Seymour Johnson Air Force Base, and we love our 
military just like the whole state does.
    But when I go back home and my people read in the paper 
that we lost $8 billion in Iraq--and I know there is waste, 
fraud and abuse, and that is true right here in Washington, so 
please understand, I am not--I have got to make the point.
    The point is that Mr. Grone is talking about saving $4.4 
billion, is that right? And we are spending $10 billion, and we 
lost $8 billion in Iraq. And sometimes it is hard for me to 
explain to a rotary club or a civic club exactly what kind of 
job we are doing handling the taxpayers' money.
    So I guess maybe it is fair or unfair to ask you this, but 
what at the Department of Defense--what type of mechanisms are 
in place--I mean, I am impressed with what you are saying today 
about we are going to start, you know, being more efficient, we 
have to be, the world we live in.
    But what are we doing with the Department of Defense with 
all these contractors and all this waste, fraud and abuse that 
is going on in Iraq? Are we making any progress at all?
    Secretary Henry. Well, first of all, probably the better 
people to speak to that would be the comptroller or the 
inspector general who is also looking into that.
    Let me talk a little bit to the culture, though, if I 
might.
    Mr. Jones. Okay.
    Secretary Henry. And you correctly pointed out Secretary 
Rumsfeld, who, while he had a long, distinguished career in 
government, also was the chief executive officer (CEO) of two 
corporations prior to coming back to the Department of 
Defense--and he learned cost saving and fiscal oversight there.
    And for those of us that work with him day in and day out, 
this is a common theme, that we are guardians of the taxpayers' 
dollars, and we really have to look at every time that we spend 
something. And I can't emphasize enough that it emanates from 
his office outward.
    Sometimes it doesn't get out as far as we could. You know, 
we have had some procurement problems. When we found out about 
those, we addressed them, we think, very rapidly. Some of them 
have gotten into the court system.
    Additionally, a change that we have now is with Secretary 
England, our new deputy. He acts as the chief operating 
officer. He is the one who runs the day-to-day management.
    We have meetings several times a week where we bring in the 
vice chiefs of the joint staff and the five undersecretaries to 
look at the operations, to look at the decision-making, to make 
sure that fiscally we are making the right decisions.
    So there is a real concern and stewardship over the 
taxpayers' dollars. We have a very large budget, and, I mean, 
mistakes are made. I think the thing that sets--we think sets 
the military apart and, we would hope, the Department of 
Defense is we are a learning organization.
    We do make mistakes, but when we make them we think we 
internalize them. We adjust. And we do everything we can to 
make sure that we don't do them again. And it is because of the 
operational world that we live in that the cost in blood and 
treasure--those mistakes are so expensive.
    And then I would just say that especially in the first few 
months after the Iraq War, if someone had to choose between 
what was going to support the troops and what was the most 
fiscally conservative way to do things, the vote went for the 
troops.
    And in the heat of combat, or immediately following combat, 
sometimes you don't have the checks and balances in place that 
you need to have. We have done everything we can to get them in 
as rapidly as we could.
    As someone who was a little bit involved in that at the 
beginning, we did everything we could to embed members of the 
General Accounting Office to go over with the team that went 
over with the Coalition Provisional Authority, put in inspector 
generals.
    We knew that these sort of things would happen. But I think 
one of the things we wanted to do was make sure that they 
became visible as soon as they possibly could. So the down side 
of that is it is something that is out there in the press, but 
that is the way we do things in America.
    We feel comfortable talking about our mistakes because we 
know we are going to try to correct them.
    Mr. Jones. Thank you.
    May I make one quick statement?
    The Chairman. Sure.
    Mr. Jones. Mr. Grone, I want to piggyback on my good friend 
from North Carolina, Mr. Hayes, about the school systems. And I 
hope that as long as we need a military that we will always--I 
tell you, the schools at Camp Lejeune, to have the privilege to 
visit those schools and to see these kids whose parents are in 
Afghanistan and Iraq and, in some cases, both parents--there is 
an environment there that you will not get in the public 
schools.
    And God knows the schools in Onslow County are excellent. 
But I have actually had the superintendent of the school system 
in Onslow County, Jacksonville, Camp Lejeune, to tell me, he 
said, ``Congressman, the school at Camp Lejeune is special. We 
can give them the same education, we can give them the same 
love, but there is just something different.''
    So I hope that as time goes forward and we are part of 
that, hopefully, let's keep that in mind. That is a quality-of-
life issue. Thank you.
    The Chairman. The gentleman's time has expired.
    The gentlelady from California, Ms. Davis, is recognized.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    Thank you all for being here and for your service. I wanted 
to follow up for a second as well on the school issue, because 
I think that it is critical.
    We fight constantly to be certain that schools have the 
kind of Impact Aid that they need. Could you tell me--I 
understand there is a report coming to the Congress here, and 
we appreciate that and I will look forward to that--how much 
integration is being done right now with the school system 
itself?
    You may not have all the answers of how many students are 
going to that school, but I am interested in knowing how many 
sit-down conversations there have already been roughly with the 
schools that will likely be impacted so that they can begin at 
least to have a sense of what is in store, what kind of funding 
they need to be seeking, course construction, what kind of 
family support systems are really going to be required there.
    Can you give me a sense of that? Are they integrated into 
the planning? And I guess following up with that, what kind of 
performance metrics do you have in place? And are those also 
part of the planning as we move forward?
    Secretary Grone. Well, certainly, quality schools--and echo 
the comments a number of members have made--are critically 
important to military families as they are to any family.
    But certainly, when you are planning for moves of this 
consequence, with the population shifts that we see, the 
relationship of those population shifts to quality education is 
obviously on the minds of service personnel and their families, 
and it is something we take quite seriously.
    There have been a number of discussions--and I couldn't put 
a number on them, but since the service most affected here is 
the Army, I will just put this in Army terms, but it applies to 
any base where we have growth.
    The Army has fairly aggressively reached out at the 
garrison commander level to engage local units of government in 
the discussion about the planning process in relation to 
schools and other facilities that will be necessary to support 
the moves.
    So the dialogue at the local level is not just about 
schools, but it is about the entire array of support systems 
and services that military families will need as they come to 
those areas.
    As I indicated earlier, we have been having at the Federal 
interagency level a series of discussions on this question, and 
we convened a conference in May where a very significant module 
of that related to education.
    There is going to be further education-specific summits--I 
hesitate to use the word ``summit,'' but very intensive 
gatherings between the Department of Education and local school 
administrators this summer to talk through the question of the 
population changes as we see them, the rate at which the change 
will occur, the requirements that are necessary at the local 
level, in order to assist people with the planning that is 
necessary and that the construction can be teed up 
appropriately, if that necessary.
    And so all of the tools that may be available, from 
developer-provided schools in the context of other initiatives, 
to traditional local bonding authority, to other initiatives 
that may be out there--I mean, people are looking at a number 
of different solutions, as school districts are across the 
country, to the options that they have available.
    But the population numbers, the schedule, will drive a 
number of those discussions, as you know.
    Ms. Davis of California. If I could just interrupt you for 
a second. Can you assure them of a time frame of planning so 
that they may know that if they have to have----
    Secretary Grone. Oh, yes.
    Ms. Davis of California [continuing]. Kids, you know, in 
seats that they have how much time in order to do that?
    Secretary Grone. Oh, yes. No, I mean, we will be able to, 
particularly as we build the data that is required for the 
report to the Congress, be able to provide surety about 
schedule.
    The most significant stabilizing factor in those plans, of 
course, are if we are able to secure the funds that have been 
requested from the Congress to carry out the recommendations. 
Failure to do that will throw the schedule into adjustment, 
with cascading effects on everything.
    Ms. Davis of California. Okay.
    Secretary Grone. So the ability to secure the funds 
requested is integrally important to exactly the question that 
you have raised, which is the stability of schedule, which from 
a local planning perspective is absolutely critical.
    Ms. Davis of California. Yes, it is. Thank you. I 
appreciate that.
    I wonder, Secretary Henry, just quickly, before my time is 
up, you mentioned the interagency process. And as we go through 
this change in terms of global posturing as well, how involved 
is the State Department, the Department of Commerce and other 
appropriate agencies in the planning today--the impact of those 
changes?
    Secretary Henry. Yes, ma'am. Secretary Grone talked on the 
domestic aspect of Department of Education. I am not sure to 
what degree we have had the Department of Commerce, but then 
that is not my portfolio.
    Let me speak to the Department of State, who we have worked 
with hand in glove from the very beginning. As we first started 
the process, they were part of the deliberations team.
    Normally, when we come to testify there is a member of the 
Department of State with us. It was our understanding that the 
committee was mainly interested in the defense aspects of it 
today, so we didn't ask one to come along. But normally, when 
we come up to the Congress we come up here together.
    It is mutual reinforcing, what we are doing for each other 
here. We are helping them be able--on the diplomacy end by 
being able to do the security cooperation out there, and then 
we are utterly dependent upon them when it comes to the 
negotiation of the different agreements that we have with the 
host nations.
    So it has been truly an integrated effort. Each step of the 
way we have gone back to the interagency process, which would 
be the broader interagency, but between the two departments, 
again, we have work extremely close.
    Ms. Davis of California. Thank you. My time is up. I 
appreciate it.
    The Chairman. I thank the gentlelady.
    The gentleman from Michigan, Dr. Schwarz, is recognized for 
five minutes.
    Dr. Schwarz. Thank you, Mr. Chairman.
    Admiral Sullivan, Subic hasn't been around for a long time. 
Okinawa will be no more, and the Marines will be transferred to 
Guam. We have a basing agreement with Singapore. I am not sure 
just what their capacity is.
    You know, I am not sure how much is being done at Yokuska 
anymore, yet it is not without the realm of possibility that in 
the next decade or so there could be some disturbances on the 
Pac Rim.
    And I am just wondering what, with the repositioning, the 
transformation, from the standpoint of the Navy and the Marine 
Corps, our capabilities now are to respond to any sort of 
aggressive action by a country bordering upon the Pacific Rim 
or an eastern hemisphere country which shall go unnamed at this 
time.
    But how does the new basing structure in the far East for 
the Navy and the Marine Corps comport with what our 
capabilities would have to be if there were an emergency in 
that part of the world?
    Admiral Sullivan. Thank you, Congressman. First of all, of 
course, we are not abandoning Okinawa. Significant forces will 
remain on Okinawa.
    But let me just kind of take you around the region, as you 
took me a second ago, starting with Singapore, where we do have 
some arrangements with the government of Singapore, where the 
Singaporeans, at their own expense, have created a fort 
facility that is capable of handling nuclear-powered aircraft 
carriers.
    They have, at their own expense, developed a command and 
control center which is intended for regional maritime domain 
awareness, if you will, with the nations in the region, 
particularly in that area, that critical area, of the Strait of 
Malacca, which you enter close to Singapore.
    Yokuska--likewise, the Japanese are undertaking the efforts 
to make that port facility capable of handling a nuclear-
powered aircraft carrier. And as you know, we will in the next 
several years be replacing the USS Kitty Hawk with USS George 
Washington, a more capable, more modern nuclear powered 
aircraft carrier, in that region.
    So I think we are getting excellent support from those 
nations in terms of enhancing our capabilities in the region.
    The move to Guam also enhances our capabilities in that, as 
Mr. Henry described, it provides us with the flexibility to 
operate our forces as we see fit and use them in any kind of 
contingency that might come up.
    And that is one of the key tenets of this approach, is to 
enter into the appropriate agreements with host nations so that 
our forces are deployable where they need to go. It is one of 
the key themes of this effort. Of course, with Guam being U.S. 
territory, that is not a consideration.
    So it actually enhances our flexibility in the region, and 
as we already talked, it is strategically located and could be 
very useful--any scenario that you might envision in the 
future.
    Secretary Henry. Congressman, I might add to that that this 
summer we are going to be demonstrating that with a major naval 
exercise, with multiple carriers, in that region, and we have 
invited many of the nations from the region, including the 
Chinese, to come and witness and actually to be aboard the 
ships.
    So we will have a visible demonstration this summer of the 
type of capability that Admiral Sullivan spoke to.
    Dr. Schwarz. --very briefly, have there been any 
negotiations with Indonesia to use any port facilities there, 
such as Tanjung Priok, which is a port of Jakarta, or Surabaya, 
which is the former Indonesian and Dutch naval base there and 
has naval facilities?
    Secretary Henry. Well, as you may be aware, until recently, 
our mil-to-mil relationships with the country of Indonesia have 
been limited by congressional legislation. We are in the 
process now of building personnel bridges, and we now have the 
ability to use the International Military Education and 
Training (IMET) accounts to be able to start to bring them in.
    But for the purposes that--we want to work with the 
Indonesians for their own internal security needs, and we are 
just now starting to work out relationships where we can come 
in in the area of disaster relief. We have the experience of 
the end of 2004 in Banda Aceh and then most recently here in 
the volcano.
    We think that the infrastructure that Admiral Sullivan 
talked to meets our needs, and we haven't seen a need in that 
area of Asia to go beyond that at the current time.
    Dr. Schwarz. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Udall--from Colorado, Mr. Udall, is 
recognized.
    Mr. Udall. Thank you, Mr. Chairman. I don't know that you 
want a state named after the Udalls, Mr. Chairman. That could 
be really problematic.
    I want to thank the panel for being here. And I am, at some 
risk, going to paraphrase the author Robert Kaplan, who wrote a 
book called ``Imperial Grunts,'' and I think he in there shared 
the old aphorism that strategy is for amateurs, tactics are for 
general officers, with all due respect to the admiral, and 
logistics are reserved for the true professionals.
    And in other words, I think he was saying function follows 
form, and I want to thank you all for what you are doing to 
position us to be ready for the threats and challenges, and 
opportunities, we face in this century.
    Secretary Grone, too, I would like to thank you for your 
tremendous work on the environmental front and the energy 
front. And I think everybody on the committee here today is 
banking on the advances that we are going to see come out of 
the DOD that will lead us to greater energy independence, 
because there is such motivation among your ranks to make us 
more agile, less dependent, on the traditional sources of fuel 
and energy.
    If I might, I would like to just focus locally, and if I 
have some time left I will focus more internationally, but we 
have talked about specific sites. Mr. Hefley was here earlier. 
We are undergoing some real changes at Fort Carson and in the 
Colorado Springs area.
    I think the numbers suggest we are going to have close to 
10,000 new personnel over the next five years, primarily in the 
4th I.D. move to that area.
    But I would like to get a sense of the preparations that 
are being made and any interactions you are having with the 
local community and what we ought to know in Colorado as this 
change looms on the horizon, which, incidentally, we are very 
eager to see unfold.
    Secretary Grone. Well, certainly, at Fort Carson, the 
process as I described for other members in terms of the 
interaction between, in this case, the Army and local units of 
government continues. We are prepared to engage with the state 
and local governments at any time in the planning that is 
necessary to support forces.
    One of the key and critical questions over time is not 
just--we are going through a fairly significant set of changes 
in relation to domestic infrastructure, and they are 
principally BRAC driven and they need to be done by a time 
certain, September 15, 2011. The long-term question is the 
sustainability of those assets which are now enduring assets 
for the long term.
    And so the question of partnership and collaboration, 
certainly at the Federal level, but particularly with state and 
local government and non-governmental organizations--local land 
trusts and the like--on how to sustain installations over time, 
so that they are not just integral parts of the community but 
that their mission can be accomplished and accommodated over 
time--that is a key component of the forward planning and the 
forward thinking we are trying to give to the post-BRAC 
environment.
    So the notion of--and certainly not all of it will be run 
out of OSD. An enormous amount of emphasis is put on the 
components and on local management at the garrison commander 
level to ensure that those relationships with the communities 
are strong enough and supportive enough over time to sustain 
those installations over the long term.
    So I know the Army will probably be able to speak 
specifically about what they are doing with Fort Carson, but we 
view those local relationships as a key component not just of 
BRAC implementation but of sustaining the installation for the 
future.
    Mr. Udall. Any other comments on that particular question?
    I think that is a tremendous way to approach what I think 
are opportunities, and obviously not just the communities in 
Colorado but all around the country. Again, I just want to 
emphasize how eager we are to see this transformation take 
place in Colorado.
    If I could go much farther afield, the status of forces 
agreement, the SOFA, that we have in Korea states that we 
wouldn't remediate land unless there are known imminent and 
substantial endangerment to human health and safety due to 
environmental contamination.
    And I am curious how we are going to respond if the 
Republic of Korea continues its request for environmental 
standards at closed U.S. installations that exceed those 
agreed-upon by the SOFA.
    Secretary Henry. Well, I will start that, and maybe 
Secretary Grone has something to add to that. We do have the 
SOFA that lays out what the criteria is for turning over those 
sites. We think that that is operative.
    We are in discussions currently with the government of 
Korea, who is a key ally of ours, and we are trying to come to 
an agreement on exactly what will be involved in the turnover. 
We think that we have a bottom line that we are given in the 
SOFA agreement, but we want to be able to do this on an 
amicable basis.
    We are partners. We do have a common threat to the north 
that we are trying to address, and so you hit a point that is 
part of ongoing negotiations.
    Mr. Udall. Thanks again to the three of you for being here.
    The Chairman. I thank the gentleman.
    The gentleman from Pennsylvania, Mr. Shuster, is recognized 
for five minutes.
    Mr. Shuster. Thank you, Mr. Chairman. Three times is a 
charm.
    And thank you, gentlemen, for being here today.
    As we begin to shift our bases around and better balance 
our forces around the world, I wondered, first of all, are we 
going to change the ratios of overseas-based assets versus 
CONUS-based assets? And that would be--personnel and I guess 
hardware would be two different numbers. Can you address that?
    Secretary Henry. Well, what we end up doing in some of 
these shifts--there is a significant shift in the European 
theater. It is, all told, in the neighborhood of 70,000 
military are going to be coming back and being stationed from 
CONUS.
    And their equipment sets largely would come back with them. 
We are putting forward more agile, lighter, what we believe 
transformational capabilities specifically in Europe with the 
Striker capability for the ground forces, and similar, a 
Striker capability in Korea.
    There is a number of major aspects to global force posture. 
Many times people just look at the footprint or the 
infrastructure aspect of it. That is one. We have spoken in 
another question about the management of the force and how we 
do the rotation. There is also one of a military presence in 
the security cooperation we have.
    Another critical one is pre-positioning, and so we are in 
the process of re-looking the pre-positioning based on the 
global force posture and our operating patterns. The 
Transportation Command is looking at some innovative ideas as 
we come to realize how we need to operate in a post-9/11 world 
that we are looking for new ways to be able to do that.
    So this is all sort of a process--that is why I was a 
little hesitant about saying there is a specific end state, 
because each month we are learning there is new applications. 
There is new ways to think about the problem.
    One of the things we have been very sensitive to is the 
fact that the taxpayer dollars that the Congress lets us use to 
be able to build this capability--that we make sure that we 
don't jump out ahead of ourselves and start to make investments 
that will not be able to be sustainable over a long term. So we 
go through a very careful scrub on that.
    There will be a change in equipment sets as we bring some 
of those forces back. I guess another shift that we are seeing, 
and it was addressed in the QDR, especially one that has to do 
with the naval presence, is a shift toward the Pacific, where 
we look at--for the submarine force and carrier force, that we 
start to shift toward about like a 60 percent weighting in the 
Pacific.
    Mr. Shuster. What presently percent of our troops are based 
abroad versus in CONUS, roughly?
    Secretary Henry. Yes, I am sorry, I can't give you the 
actual basing numbers. At any one time, in the current 
operations, we have in the neighborhood of 300,000 forces 
forward. But the majority of those are rotational. That 
percentage will become larger and larger, a rotational rather 
than a forward stationed.
    One of the issues that are driving us there on the quality 
of life aspect is as we have this operations that we are doing 
in Iraq and Afghanistan, we have a double separation problem 
when we rotate troops from Europe, because they are home away 
from their support structure in the U.S., and then they rotate 
away from their families, so we are hoping to get away from 
that.
    Mr. Shuster. And we are at war right now, I know, in Iraq 
and Afghanistan, but bases in Europe--what percentage are 
Europe and Japan and South Korea? What would you say in non-war 
time, what percentage would we have of our troops based abroad, 
20 percent, 25 percent?
    Secretary Henry. Well, we have about 1.2 million people 
under arms, active duty, and close to a like number in the 
Reserve component. I believe we will be at about 25,000 in 
Europe, and I don't have the specific number in my head, but it 
will be a very small percentage that will be permanently 
forward.
    Mr. Shuster. And two assumptions I have--maybe you can 
straighten me out if they are incorrect--is, one, it is less 
hardship if they are based in the United States; two, it is 
less expensive to base people here. Is that accurate?
    Secretary Henry. Yes, it is. There are some costs that tend 
to be higher, but the majority of costs that you are going to 
incur are going to tend to be lower. Some of the things--I just 
really want to emphasize the president has been the leader in 
looking and making sure that we look at quality of life of our 
service members.
    Some of the benefits you get is not just the cost, but for 
the service member, they are stationed--they have longer tours 
of duty, somewhat of a homesteading in a certain geographical 
area. The spouse is able to have a longer term employment. They 
are able to have support mechanisms in the local community 
outside just the military community.
    So as we have looked at this, we have made a real emphasis 
to make sure that we are actually improving the quality of 
life, much more stability, predictability in their professional 
life.
    Mr. Shuster. I see my time has expired, but if I could ask 
one more question; it is actually a two-part question. One is 
the strategic ports that we went through a process a year, 18 
months ago, and the strategic ports, agile ports, where are we 
in that process? Are we moving forward with that, is the first 
part of the question.
    And the second is the Port of Philadelphia is one that--of 
course, the strategic ports. I believe DOD identified 
Philadelphia as well as several others around the country. 
Where are we in that process of utilizing those ports and what 
is the plan on utilizing them, first?
    And second, are there any technological advancements in the 
transportation field--bigger aircraft, things we can sealift or 
airlift, use, that may be coming online to utilize in getting 
our troops to theater quicker if need be?
    Secretary Henry. Let me address the second part. That is 
the part I am knowledgeable on. The CONUS things--let me give 
that to Secretary Grone, if I can.
    In the area of technology, we have a very capable force to 
meet our needs now, but we are seeing some new technologies 
coming on board. One is the high-speed surface ship that is 
able to move at 50 knots-plus. We are bringing those on board 
in the littoral combat ship.
    But we are also looking at ways that we can use them for 
transportation modes and rapid resupply, plus the draft is 
significantly shallower, so that it is able to almost triple 
the number of ports that it is able to get into.
    Transportation Command is looking at different technologies 
that will allow us--with the same precision that we deliver 
weapons, we would also be able to deliver logistics, airborne, 
so there are some technology demonstrations going on in that 
area.
    And then there is a lot of--I don't know that it is 
necessarily technology, but in process and innovation, 
especially from the logistics support end. We have gone to what 
we call a joint distribution process owner, where 
Transportation Command oversees the process from the time it 
leaves the U.S. until it gets to the distribution point in 
theater. And that has given us remarkable savings.
    Again, we really looked at the lessons from the Gulf War, 
where we put a tremendous amount of materiel over in theater, 
more than we needed, and a lot of it became stranded, and so to 
talk but, you know, being stewards of the taxpayers' money, 
that is a large area where we can do a better job, and we have 
been applying those lessons.
    And technology is happening--another area significant in 
technology is the radio frequency identification tag, so that 
we are able to remotely know what materiel is in what boxes and 
to be able to track that to have instantaneous knowledge of 
where something is in the process.
    It is allowing us to move toward just-in-time inventory, 
not all the way to do that, because you can't do that with 
operations--a number of various technologies making a 
difference.
    Secretary Grone. And, sir, on the other part of the 
question, I frankly will have to get you an answer for the 
record. It is just not something I know immediately.
    [The information referred to can be found in the Appendix 
beginning on page 66.]
    Mr. Shuster. I would appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    The gentleman from Washington, Mr. Larsen, is recognized.
    Mr. Larsen. Thank you, Mr. Chairman.
    Thanks, gentlemen, for coming here. I am going to put my 
oar in the water on impact date as well, because it is a good--
as you look at your report in July--I think you mentioned we 
will see something in July that looks at a variety of issues--
the DOD contribution to the impact date budget, I think, has 
been pretty much static over the last 5 years.
    It was after in 2001 where there was an effort to cut the 
DOD contribution, and many of us, in a bipartisan approach, 
opposed that, and was able to stop that cut.
    So with 70,000 or so individuals, active duty individuals, 
coming home, presumably some with families, and presumably some 
of those--that is, some with spouses, presumably some of those 
with kids, they are going to have an impact, a larger impact, 
on our local schools that I believe I would argue that the DOD 
has an obligation to help the local schools pay for and not 
strictly put it on the backs of the local property taxpayers.
    So I would hope that you would consider those thoughts as 
we move forward.
    The second point I want to make or second set of things I 
want to discuss has to do with the estimates, the $9 billion to 
$12 billion estimate, because as you probably--if you are 
tracking what we are doing on the committee here, we have been 
looking at acquisition reform as well as a variety of other 
issues.
    And one of the things that is really, I think, coming to a 
head sooner rather than later for many of us on this committee 
is a clash between weapons and warriors; that is, a choice here 
that is going to pit how we support our men and women in the 
military and their families versus what we do with major 
defense acquisition programs.
    And we are starting to see some of those haircuts take 
place in the budget and the appropriations bills that we have 
addressed in the last couple years, and certainly the one we 
are taking a look at today.
    So those costs are really starting to--I think we are 
really starting to see those costs get squeezed in the defense 
budget, which is why the GAO study here, of May 2006 on defense 
management, the unclassified summary, does bring up the 
question about the initial cost estimate of the $9 billion to 
$12 billion estimate.
    In fact, in your testimony as well, you indicate that as 
negotiations with host nations progress, our global defense 
posture plans mature. This estimate, the $9 billion to $12 
billion estimate, is, in fact, subject to change. Where 
necessary, the department revisits those plans, the posture 
plans, if cost-sharing with key host nations does not 
materialize.
    I just want to get your thoughts on something that Delegate 
Bordallo and Representative Udall both brought up, when she 
said do we consider Guam--the master plan is not yet done on 
Guam.
    So I would ask do those $9 billion to $12 billion cost 
estimates consider the outcome of the master plan for 
development on Guam for receiving Marines and the other things 
that we are doing there as well.
    I am glad your both eager to answer this question.
    Secretary Henry. The answer is yes, it did consider it. We 
talked in there about what the exact cost was going to be. It 
is predicated upon what our negotiations are with host nations 
and third-party nations, and Guam is an excellent example.
    We wouldn't have made the moves if we didn't have the 
participation from Japan, which is approaching 60 percent of 
the cost, as we did. That is an example.
    As we go to look at what the specific lay-down will be in 
the implementation of the master plan in Central Command, a lot 
of that will have to do on host nation participation. So it 
does specifically make a difference.
    Mr. Larsen. On the issue of Japan at 60 percent of the 
cost, it is 60 percent of Guam?
    Secretary Henry. Of the Guam cost, yes, sir.
    Mr. Larsen. Which is what, how much?
    Secretary Henry. It is approaching $11 billion.
    Mr. Larsen. So then the other $4.5 billion is U.S. cost.
    Secretary Henry. Yes, and that is part of the--that is part 
of the $9 billion to $12 billion.
    Mr. Larsen. $9 billion to $12 billion.
    Secretary Henry. Yes. That has been factored in there.
    Mr. Larsen. Okay. But it is almost half of the $9 billion 
to $12 billion--well, it is half of the low-end estimate.
    Secretary Henry. Of the Guam, yes. Guam is the major----
    Mr. Larsen. Guam is half of the low-end estimate.
    Secretary Henry [continuing]. Is the major new investment 
in infrastructure that we will be doing as part of this.
    Mr. Larsen. Something that Congressman Udall addressed, as 
the light turns yellow, has to do with ongoing negotiations 
with the Republic of Korea, and it seems from his question and 
your answer that there is still some fungibility in that 
number. Would that be accurate?
    Secretary Henry. We wouldn't extrapolate it that far. There 
are discussions as far as what exactly are the environmental 
criteria for the turnover of the bases. From our perspective, 
we do not see that impacting in any significant way the cost of 
implementing global force posture.
    Secretary Grone. On the question of the master plan and the 
reliability of the cost estimates, the master plan is 
principally, although not exclusively, about siting and other 
issues.
    As we are looking at the facility cost of moving Marines 
from Okinawa to Guam, in consultation and discussion with the 
government of Japan, a number of those assets--almost all of 
those assets do not currently exist on the island of Guam.
    So you are fundamentally working with cost estimation 
procedures that we would use for it if we were building new 
MILCON. So I am quite confident about the cost estimation for 
the facilities piece of the move from Okinawa to Guam, because 
it is more or less along the standard process that we would use 
to cost estimate new facilities anywhere.
    The master plan is an important part of that process, but 
it will not significantly alter the cost relationships. It is 
an overall master plan, integration of all the activities that 
have to go on on the island.
    But in terms of whether or not the--because the master plan 
is not formally completed, that that means that the cost 
estimates are soft--I am not sure that I would extrapolate it 
that far.
    Mr. Larsen. Okay.
    If I can just conclude, Mr. Chairman.
    The reason I wanted to put those questions into some 
context is just to let you know--to give you some context to 
what we are hearing in other committee hearings from your 
colleagues in the Pentagon about some of the challenges we are 
going to be facing.
    GAO was up here a few weeks ago. David Walker was up here a 
few weeks ago with an overall study about the defense budget 
and how it fits into the overall Federal budget.
    There is going to be, at least according to GAO, some 
squeezes put upon the Pentagon budget and every other budget in 
the Federal Government.
    And so, you know, I hate to say we are going to be looking 
at nickels and dimes, but it almost comes down to being sure 
that every dime spent is a dime well spent in the Pentagon 
budget.
    Secretary Henry. We couldn't agree with you more. We are 
very aware of that tension. We are also aware of cost growth 
that we don't have a--as added benefits are put on that maybe 
we don't get the same performance from, so those are things 
that we are concerned about.
    But we understand the tension between, as you put it, the 
warrior and the weapons. We are very cautious of that. We are 
sensitive to the way that some of the European militaries have 
gone when they have skewed that investment in one direction and 
we think that maybe have overcompensated, and they really don't 
have the capability to get out there and to make a difference 
in the world.
    So that is something we will have to work in partnership 
with the Congress on.
    Mr. Larsen. And I will just conclude by saying--and I am 
not bringing up these questions because I am opposed to the 
global posture realignment. I think it is a good idea. It is 
the right way to go. We have just got to watch it very closely.
    The Chairman. The gentleman's time has expired.
    The gentlelady from Michigan is recognized, Ms. Miller.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman.
    And I appreciate all of our witnesses today. I appreciate 
your service to our nation and I appreciate your patience 
waiting till those of us on the lower tier here get an 
opportunity to ask a question.
    But it has been, I think, a fascinating hearing for me, 
listening to all of you talk about some of the various parts of 
your decision-making as you talk about re-basing and changing 
some of the--listening to Okinawa and Guam has been very 
interesting to me.
    I mean, you have the Japanese who built those hangars 
apparently 20 years ago on Okinawa and now on Guam principally 
most of the investment is ours, I guess. So I think there is a 
lot, obviously, on your plate to consider when you are thinking 
about some of these things.
    But with all the different various parts of that, first and 
foremost, of course, national security and strategically where 
we need to be and how we need to invest as we go into the 
transformation that Secretary of Defense Rumsfeld has 
articulated during the time that he has been there.
    And so on a number of different things--obviously, cost as 
well, and I appreciate, Secretary Henry, your saying that 
Secretary of Defense Rumsfeld is constantly saying we need to 
be guardians of the taxpayers' dollars.
    I would like to ask a specific question about Iceland. And 
perhaps you could flesh out for me a little bit about what went 
into our decision-making to get out of Iceland, how much 
generally we have spent in Iceland over the years. It has got 
to be billions and billions of dollars.
    Certainly, it was a strategic critical component during the 
Cold War--no longer the case, and I am sure that all part of 
it. But what is going to happen to the troops that are there? 
Where are they sort of going to be going?
    And what is going to happen to the inventory that is there? 
What happens with the infrastructure that is there? I would be 
interested to know a little more about Iceland, Reykjavik.
    Secretary Henry. Well, let me take that at a top line, and 
maybe the other two will want to amplify my remarks. We have a 
security agreement with Iceland from 1951, as we realized that 
we were going to need that capability in the Cold War.
    And so that has driven a lot with the rapidity with which 
we have been able to change. The analysis basically looked at 
what the strategic situation was. Iceland does not have its own 
defense capability, so it in the past had relied on the United 
States.
    We had a number of fighter aircraft out there to provide 
them air cover. We had some antisubmarine warfare capability 
due to the--during the Cold War the Soviets were going to have 
to come through that choke point of the Greenland-Iceland-
United Kingdom area, so that was a very strategic area.
    The world we find ourselves in today--it is not as 
important to have forces there permanently, so the change that 
we are making is that we are moving permanent forces out of 
Iceland. We will be bringing back all the transportable 
elements.
    There is going to be infrastructure left there. That is 
part of the final negotiations we have with the government of 
Iceland as far as determining--which are ongoing presently, 
determining exactly what the disposition of that is.
    We are not leaving Iceland permanently. We are just taking 
out the permanent stationed forces. We plan on going back. It 
will be a security cooperation location, one of those that 
Admiral Sullivan talked to where we can fall in. We can do 
exercises from there, operate from there.
    So we plan on a periodic basis going back and operating 
from there. It is just that we will not have permanent forces 
forward. But it is somewhat indicative of how the world has 
changed. It is also, for us--internally, in the process, it is 
indicative sometimes of how difficult it is, though, to 
generate change.
    This has been an item of discussion between us and the 
Icelandic government for the last five years. And change for 
some of us that have been involved in it has been fairly slow 
in coming. But persistence and working with the host 
governments, we eventually get there.
    Mrs. Miller of Michigan. Shifting gears here, another 
question that I have--I sometimes think that we expect so much 
from the Army Corps of Engineers in so many ways, and of course 
they will be responsible in many ways for all of this 
construction capability that has got to be happening with the 
conversions of BRAC, with modularity, with overseas re-basing, 
et cetera.
    We are got them down in the Gulf building a levee that has 
to withstand something that--Hurricane five and people that 
want to live under the sea level, and if it doesn't work, it is 
not God's fault, it is the Army Corps of Engineers' fault.
    Do you have any comment on whether or not you think the 
Army Corps of Engineers is going to be able to handle 
everything that we have put before them?
    Secretary Grone. I think the short answer to that is yes. 
General Strock and General Temple and the Corps leadership have 
undertaken a very aggressive look at how to transform their 
organic business practices and, I might add, the Naval 
Facilities Engineering Command is doing similarly. The Air 
Force Civil Engineers are also positioning themselves for 
executing BRAC.
    All of the construction--the two major construction agents 
in the department, the Corps and NAVFEC are looking 
aggressively at their organic business practices, how we do 
acquisition, how we think about design, how we think about 
engagement with the private sector to ensure cost schedule 
performance for the assets that we desire to acquire through 
this process.
    And the Corps specifically has, in looking at their 
business processes--is of the firm belief that they can deliver 
facilities in 30 percent less time, 15 percent less cost, based 
on the changes that they are putting into place that will, I 
think, change the way in which we think about and how we do 
military construction in the components.
    It is my personal observation, having sat as a member of 
the staff of this committee at the last round of BRAC, there 
was a lot of discussion in the department about how we would 
change the acquisition process, how we would change the MILCON 
process.
    And a lot of our business practices were changed for the 
better in learning things from BRAC. And fundamentally, that 
didn't happen.
    What I see in the department today is an interest from the 
construction side of the house as a business enterprise to look 
at the changes that are required in BRAC for global posture and 
other initiatives, to ask ourselves some very fundamental 
questions about how we are organized and how we conduct the 
business.
    And so the context and the context of the secretary's 
ongoing transformation requirements, frankly, the pressures 
that exist fiscally in that environment, and just the desire to 
become more efficient and competitive and to be able to deliver 
product to the customer at lowest cost to the taxpayer is 
driving a lot of these business process changes.
    And the Corps has situated themselves in a way where they 
are in a position, working with their sister services, to be 
able to execute the program, and I have very high confidence in 
that.
    Mrs. Miller of Michigan. Thank you very much, gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady for her questions.
    And the gentleman from Mississippi is recognized for five 
minutes, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank our witnesses for sticking around this 
long. My question is to Secretary Ryan. This weekend's 
Washington Post was, I thought, one of the most disturbing 
articles I have ever read about our nation's acquisition 
process.
    It talks about not only the arming of the humvees but in 
particular the arming of our troops. It made some very strong 
allegations that the folks in Point Blank were given a sole 
source contract when other firms could have made the same 
product, and the more people you have making the same product, 
the quicker we could have got it to the troops.
    It also has an allegation that in the course of this sole 
source contract, a guy by the name of David Brooks went from 
making a very respectable $570,000 a year in 2001 to $70 
million a year in 2004.
    Given the gravity of this article, I would like to ask you, 
as our policy director, what is your policy on sole sourcing 
when the troops need something that other people can make and 
need it in a hurry.
    My second question is what is your policy on war 
profiteering? Apparently about 30 percent of the money we spent 
with this firm went into one man's pocket.
    Secretary Henry. Thank you, Congressman. Just like the 
committee structure up here on the Congress, you have different 
areas that you focus on. We do similar down in the department. 
We have five undersecretaries that work policy. I represent the 
one that works our international and security policy.
    The area of acquisition comes under the under secretary for 
acquisition, technology and logistics, and so he would be the 
one that would specifically develop the policies that you refer 
to. Obviously, though----
    Mr. Taylor. But if I may, Mr. Secretary, not just a few 
minutes ago I thought I heard you say that for all of you, that 
the big boss--that would be Secretary Rumsfeld--said that you 
have to be guardians of the taxpayers' dollars.
    Now, with this in mind, I would like to know--and I think I 
also heard you talk about getting the material to the troops as 
quickly as possible. So again, with this in mind, since you 
gave me, I think, that opening, I think this is a more than 
fair question.
    And I would really prefer if you answer it instead of 
dodging it.
    Secretary Henry. If I might continue----
    Mr. Taylor. Sure.
    Secretary Henry [continuing]. I just want you to understand 
that I am not the one that develops the policy or gives the 
secretary policy advice in this specific area. We do that in 
the area of international security. Nonetheless----
    Mr. Taylor. The secretary is not here today, and the other 
guy is not here today. You are here today. I am asking you a 
direct question. I would very much like an answer.
    Secretary Henry. Nonetheless, I can tell you that the 
secretary does put out that we are stewards of the taxpayers' 
money. Obviously, there is no one in the Department of Defense 
that condones war profiteering.
    We live and work with the individuals that are on the front 
lines. We very acutely feel our responsibility to give them the 
very best value we can.
    We are human beings. And from time to time, individuals 
make mistakes. When they do, if they are culpable mistakes, 
then we have a disciplinary process or a legal process we take 
them through, and we do it, we think, as rapidly as the law 
will allow us.
    So there is no one that I have ever come in contact with 
that comes anywhere close to condoning war profiteering.
    In the area of sole sourcing, sometimes one has to make a 
decision of whether I want to get something to the troops 
rapidly or do I want to use a contract vehicle that I currently 
have in place or someone that can deliver it more rapidly.
    There is a process by which we go through. Again, that is 
not something that falls under my area of responsibility, so I 
am not a subject matter expert on that. But I am aware that 
there is a process one goes through in making a decision on 
whether to sole source a contract.
    That is subject to review from within the functional 
components within the Department of Defense. It is also subject 
to review from the inspector general. And it is also subject to 
review from congressional oversight.
    Mr. Taylor. According to this article that DOD is now 
looking at a replacement for the Interceptor body vests----
    Secretary Henry. I am sorry I didn't----
    Mr. Taylor. According to this article in Sunday's 
Washington Post, a very widely read publication, the first 
allegation is that Point Blank was given a sole source when, 
according to a former employee, a retired Marine lieutenant 
colonel by the name of McGee, said that roughly 20 companies in 
the country were qualified to make the Interceptor's outer 
vest.
    Yet the time when the troops drastically needed this, they 
were given a sole source contract. The reason I think this is 
very current is that according to this document, we are looking 
at a replacement for the Interceptor.
    As we go through this competition, is that competition 
being written in a way so that when the product that is going 
to be purchased is determined, we can have multiple suppliers 
make this, or are we going to have the same mistake and rely on 
one person to make it and pretty well be at their mercy as to 
whether or not--when they feel like delivering it?
    Secretary Henry. Again, I do not have knowledge of the 
specific case which you are bringing up. I can talk to you 
about the way we approach things in the Department of Defense. 
And when it is feasible----
    Mr. Taylor. For the record, I have asked the question. If 
you can't give me an answer today, I would like an answer for 
the record in a timely manner. That is a fair question to one 
of the undersecretaries of defense of this nation.
    Secretary Henry. We will get in touch with the people that 
are the subject matter experts and get back to you with an 
answer, Congressman.
    [The information referred to can be found in the Appendix 
beginning on page 65.]
    Mr. Taylor. For the record, what does this administration--
what does our secretary of defense, Donald Rumsfeld, think 
constitutes war profiteering? What is the margin? Is a guy 
making $70 million a year on something the GI's have to have 
profiteering? I mean, what is the threshold?
    I realize we want to encourage people to do things, and we 
are a free market economy. But I think this guy crossed that 
line.
    Secretary Henry. Well, we would believe that we have 
statutory laws in place that prohibit war profiteering. You 
used the number $70 million as being excessive. To me, the 
salary started at in 2001 of $500,000, to some of us that are 
government servants, seems to be excessive.
    Mr. Taylor. Well, if I may, sir, that is an excellent 
point. So why were they then given a contract in 2001 when he 
was making $500,000 a year?
    Secretary Henry. Well, first of all, I would like to 
stipulate that I don't know the facts in that article are 
actually accurate. I am not familiar with them. That is one of 
the things we would like to get back to you on.
    There might be another set of facts, you know. They are not 
held to the same standards of accuracy that we are when we do 
our investigations. So let us get back to you with the best 
information we have.
    While I can't give you the specific answer, I can tell you 
that your gut feeling about this is an alignment not only with 
the secretary, not only with myself, but everyone that is there 
as a public servant or serving in uniform in the department.
    And if something like that were to be happening, and 
someone were profiting to that extent, we would find it more 
than distasteful.
    Mr. Taylor. Secretary Ryan, seeing as how my turnaround 
time with the Department of Homeland Security on profiteering 
related to Hurricane Katrina is averaging about 120 days--so my 
question is what would be a fair amount of time to expect an 
answer on this.
    Secretary Henry. We will get back to--I will get back to 
you within a week of the best information we currently have 
available.
    Mr. Taylor. Okay.
    Secretary Henry. Okay? That probably won't be perfect. It 
probably won't answer all your questions. We will give you the 
best response we can by the end of the week and give you an 
estimate of what it will take to give you a more definitive 
answer.
    [The information referred to can be found in the Appendix 
beginning on page 65.]
    Mr. Taylor. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman for his questions.
    I thank the witnesses for their appearance and for their 
diligence in staying for the entire time and for your service 
to the country. We have a number of questions that we will 
submit for the record that we would ask you to get back to us 
on.
    I do have one question I would like to ask verbally, 
because there has been some rhetoric as we approach the 
election season that there is some secret plan to establish 
permanent military bases in Iraq.
    So would whoever wants to answer tell us, are there any 
plans for a permanent military base in Iraq that you are aware 
of? And if so, would you detail and outline those plans for us 
today? Are there any plans for permanent military basing in 
Iraq?
    Secretary Henry. I can tell you from the point of view of 
the Department of Defense that we just have put in place in 
Iraq sovereign government. We think it would be premature to be 
starting to develop plans when we don't even have a government 
in place.
    Just like we worked with the government of Afghanistan, 
they came forward and said that they would like to have a 
strategic relationship with us, at some point in the future the 
government of Iraq might feel similar, and we would enter into 
those discussions, and that the Congress would be witting of 
what we were doing.
    To date, none of that has taken place. One of the tenets of 
our global force posture that the secretary laid out from the 
very beginning is we will not be somewhere that we are not 
wanted. And so that would hold true in Iraq also.
    The Chairman. So the point is we--cut you to the chase--
that there are no plans today to establish a permanent military 
base in Iraq, is that correct?
    Secretary Henry. I cannot tell you what every single 
individual in the Department of Defense is thinking or 
planning. I can tell you what officially gets done and what 
raises up to the level and what would come before the senior-
level decision-making in the department. And nothing like that 
has come forward.
    The Chairman. Do you have anything you want to add to that, 
Secretary Grone?
    Secretary Grone. No, sir. I am not aware of any plan.
    The Chairman. I thank you.
    Mr. Taylor. Mr. Chairman?
    The Chairman. Yes.
    Mr. Taylor. I think a fair follow-up question, if you would 
yield.
    The Chairman. I will yield.
    Mr. Taylor. To the panel, I remember visiting the troops in 
Bosnia, and almost everything that we constructed in Bosnia was 
made out of plywood--plywood movie theaters, plywood 
gymnasiums, plywood C-huts, plywood latrines.
    And I think the message, you know, that--I was hoping the 
message to the people of that region was we are going to be 
here, we are going to take care of our guys, we are going to 
keep them warm in the winter, we are going to keep them cool in 
the summer, but you can see from this wooden construction this 
is temporary, we are not here forever.
    Interestingly enough, when you visit the Balad Air Base, 
you see a lot of things being made out of concrete. Now, as 
somebody who is having to dabble with that himself, concrete is 
a lot more permanent than plywood.
    So my question is is there a financial reason for doing 
this. Is, for some reason, concrete a heck of a lot cheaper in 
Iraq than it is in Bosnia, or is wood a heck of a lot more 
expensive in Iraq than Bosnia, or, to the gentleman's question, 
is it a sign of a permanence of the buildings?
    Secretary Henry. I think you will find that the--and you 
probably, in your travels, saw this, too--the security 
situation in Bosnia versus--the security situation and force 
protection needs are different in Iraq than they were in 
Bosnia.
    The other issue is the Middle East can be a very difficult 
neighborhood. The Iraqis are going to need to be able to defend 
themselves when we leave. And so when we build, one of the 
things that we take into account is what will be the long-term 
use of that. And we want to have something that is going to be 
available and of us to the Iraqis.
    I can't tell you what, again, every single individual does 
when they make a decision. I can tell you what the policy 
process has been and what the decision process has been at the 
Department of Defense and the Office of the Secretary of 
Defense. And that is the thought process--has gone into the 
facilities that we put in place.
    The Chairman. Reclaiming my time--did the gentleman have a 
follow-up?
    Mr. Taylor. I think Secretary Grone was hoping to say 
something, if you don't mind, Mr. Chairman.
    The Chairman. Sure, go ahead.
    Secretary Grone. Just from the raw perspective of 
construction technique, the two cases are not comparable in the 
sense that what is locally available and what is sufficient for 
that particular environment is what generally we use.
    As a matter of just expense, wood doesn't sustain itself 
well in the desert. It wouldn't sustain itself well at Balad. 
And concrete is comparatively cheaper.
    Now, in many of these instances where we have had air 
strips, facilities and things that we have been building, even 
if we are using what is perceptually a harder, more permanent 
structure, the design of it is such that it is not as if we 
were building a similar facility back here in the states.
    In many cases--and we have had these projects and repair 
projects come up where we have had air strips and air fields, 
where we have had to come up for repair projects, seeking 
authority from the Congress to expend funds--because of the way 
in which they were originally designed, were intended to be 
temporary.
    And as we have used them, they have required additional 
repairs as the mission continues. So I think it is a reasonable 
question to ask, but the technique itself is not necessarily--
--
    Mr. Taylor. For the record, Mr. Grone, I would like to know 
what we are paying per cubic yard for concrete at the Balad Air 
Base. I know you are not going to know off the top of your 
head. I would like to know for the record.
    Thank you, Mr. Chairman.
    [The information referred to can be found in the Appendix 
beginning on page 65.]
    The Chairman. The gentleman's request has been made.
    Again, I want to thank you all for your appearance today 
and for your testimony, and we will look forward to the 
additional follow-up and response to questions that we will 
submit to you in writing.
    With that, this hearing stands adjourned.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             June 20, 2006

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 20, 2006

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             June 20, 2006

=======================================================================


                   QUESTIONS SUBMITTED BY MR. SAXTON

    Mr. Saxton. I guess what I am curious about is the type of--what 
kind of input did we get from combatant commanders in arriving at the 
decision to use this formula? And on the CONUS side--let me just ask 
these both and then let you guys answer them. On the CONUS side, I 
understand that we have a concept where we will employ six new power 
projection platforms, and I am not quite sure that is the right word or 
the right title.
    And the reason that I am, of course, interested in this is that 
Fort Dix may very well be one of them, and I wondered if you would 
describe the concept and give us your thoughts on that subject as well.
    Secretary Grone. [The information was not available at the time of 
printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. REYES
    Mr. Reyes. I wanted to make concerns the base operating support 
budget, because we are seeing this year a shortage of funds, and as all 
of you probably know, this committee took exception with the Army 
funding at just 69 percent in the current funding cycle.
    But the concerns are besides affecting critical services for 
military members and their families, the shortfall is having a major 
impact on the post's ability to accommodate the influx of troops. This 
shortfall is coupled with an ongoing hiring freeze.
    And so I am hoping that you, Secretary Grone, can enlighten us on 
how you are working to ensure that the bases have both the personnel 
and the funds that they need to plan for the troops coming in from 
overseas.
    Secretary Grone. [The information was not available at the time of 
printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE
    Mr. Kline. So the bases on Okinawa would still be the same? You 
would have Fatima and Hansen and Schwab? Would all the bases still be 
there, there would just be fewer Marines on them, or what would that 
look like? And we would end up, generally speaking, with exactly the 
same number of bases that we have there now?
    Secretary Henry. [The information was not available at the time of 
printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. HAYES
    Mr. Hayes. What steps are being taken to particularly meet the 
needs of the school requirements? Are any funds available overseas to 
be reprogrammed for DODEA or school needs such as Impact Aid?
    Secretary Henry. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TAYLOR
    Mr. Taylor. As we go through this competition, is that competition 
being written in a way so that when the product that is going to be 
purchased is determined, we can have multiple suppliers make this, or 
are we going to have the same mistake and rely on one person to make it 
and pretty well be at their mercy as to whether or not--when they feel 
like delivering it?
    Secretary Henry. [The information was not available at the time of 
printing.]
    Mr. Taylor. I would like to know what we are paying per cubic yard 
for concrete at the Balad Air Base? I know you are not going to know 
off the top of your head. I would like to know for the record.
    Secretary Grone. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    The Port of Philadelphia is one that--of course, the strategic 
ports. I believe DOD identified Philadelphia as well as several others 
around the country. Where are we in that process of utilizing those 
ports and what is the plan on utilizing them, first? And second, are 
there any technological advancements in the transportation field--
bigger aircraft, things we can sealift or airlift, use, that may be 
coming online to utilize in getting our troops to theater quicker if 
need be?
    Secretary Grone. [The information was not available at the time of 
printing.]

                                  <all>

</pre></body></html>
